<html>
<title> - THE CRISIS IN MACEDONIA AND U.S. ENGAGEMENT IN THE BALKANS</title>
<body><pre>[Senate Hearing 107-68]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 107-68

       THE CRISIS IN MACEDONIA AND U.S. ENGAGEMENT IN THE BALKANS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 13, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                   U.S. GOVERNMENT PRINTING OFFICE
73-349                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         CRAIG THOMAS, Wyoming
BARBARA BOXER, California            BILL FRIST, Tennessee
ROBERT G. TORRICELLI, New Jersey     LINCOLN D. CHAFEE, Rhode Island
                                     SAM BROWNBACK, Kansas
                     Edwin K. Hall, Staff Director
              Patricia McNerney, Republican Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     3
Clark, Gen. Wesley K., (U.S. Army, Ret.), corporate consultant, 
  Stephens Group, Inc., Washington, DC...........................    29
    Prepared statement...........................................    30
Helms, Hon. Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................     6
Nash, Maj. Gen. William L., (U.S. Army, Ret.), senior fellow and 
  director of the Center on Preventive Action, Council on Foreign 
  Relations, Washington, DC......................................    47
    Prepared statement...........................................    48
Pardew, Amb. James, Senior Advisor on the Balkans, Bureau of 
  European Affairs, Department of State, Washington, DC..........     7
    Prepared statement...........................................     9
Perle, Hon. Richard, resident fellow, American Enterprise 
  Institute, Washington, DC......................................    33
Serwer, Dr. Daniel P., director, Balkans Initiative, United 
  States Institute of Peace, Washington, DC......................    50
    Prepared statement...........................................    52

                                 (iii)

  

 
       THE CRISIS IN MACEDONIA AND U.S. ENGAGEMENT IN THE BALKANS

                              ----------                              


                        WEDNESDAY, JUNE 13, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 10:40 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Joseph R. Biden, Jr., (chairman of 
the committee) presiding.
    Present: Senators Biden, Torricelli, Bill Nelson, Helms, 
and Lugar.
    The Chairman. The hearing will come to order. I apologize 
to the witnesses. We had two votes. We are going to have, 
unfortunately, another vote in about a half an hour. Maybe the 
Senator and I can work out trading off getting there so we do 
not hold the witnesses.
    It probably comes as no surprise to most of the people the 
subject of my first hearing as chairman of the Foreign 
Relations Committee.
    And I might add for the record it is evidence that it is 
better to be lucky than good. I am sitting here as chairman. I 
want to thank Senator Helms for the gracious way in which he 
has dealt with this change that neither one of us expected. If 
there is anything that should generate some degree of humility, 
it should be the way in which this change took place because it 
may be, in another 6 months, someone else is the chairman here. 
But at any rate, I want to thank Senator Helms. Oh, there he 
is. Mr. Chairman, how are you?
    The first hearing relates to the Balkans. My long-held 
interest in this region is not unique on this committee. Under 
the able chairmanship of Senator Helms, the challenge of 
building a durable peace in southeastern Europe has received 
strong bipartisan support. This support stems, I believe, from 
the shared realization that stabilizing the Balkans is critical 
if we are ever going to attain the oft-stated, elusive goal of 
a Europe whole and free.
    Conversely, my colleagues on this committee also recognize 
the grim fact that if we allow the Macedonian state to 
disintegrate, it could shatter the current peaceful relations 
in southeastern Europe among Serbia, Bulgaria, Greece, Albania, 
and Turkey.
    Today's hearing has a two-part focus. First, we will 
discuss the extremely volatile situation in the Former Yugoslav 
Republic of Macedonia, a country that just 1 year ago was 
considered a model of inter-ethnic cooperation, but now teeters 
on the brink of civil war.
    Second, I would like our witnesses to take a broader look 
at the current scope of U.S. economic military and diplomatic 
engagement in the region and assess whether our effort until 
now is adequate to address the considerable challenges that 
include, among other things: helping to rebuild severely 
damaged economies of Serbia, Croatia, and Bosnia; fully 
implementing the Dayton Agreement so that Bosnia and 
Herzegovina becomes a genuine multi-ethnic democracy; 
peacefully resolving the final status of Montenegro and Kosovo; 
and most immediately, pacifying and helping to reform Macedonia 
so that all its citizens have equal rights and opportunities.
    Although Macedonia is the clear and present danger in my 
view, I believe that a comprehensive examination of our entire 
Balkan policy is urgently needed.
    I had the privilege of spending some time, Mr. Chairman, 
with the President of the United States on Monday at his 
invitation, and he indicated to me that part of what he was 
going to be doing in his European trip was reinforcing among 
our European allies and friends that we were committed with 
them in the Balkans and that was not going to change.
    Most troubling to me is what is happening right now in 
Macedonia has an almost scripted familiarity to it. How many 
times now have we watched as a simmering crisis erupts into 
open conflict while we stand aside and wait for the Europeans 
to take the lead? In my humble opinion they never have and are 
not inclined to, not withstanding the fact that Secretary-
General Robertson is going to be in Macedonia tomorrow.
    In 1991, it was Croatia. In 1992, it was Bosnia. In 1998, 
Kosovo. And now in 2001 it is Macedonia. And make no mistake 
about it. If Macedonia fractures, it will have the most 
profound impact on the Balkans of any of the region's five wars 
in the last decade.
    The administration, which initially responded to the crisis 
by augmenting U.S. emergency assistance to Macedonia and 
sending Secretary Powell to the region, now appears to be not 
quite sure where it is going to go next at this moment. I 
understand that and maybe they have made a decision. We may 
hear that today, but up to now, I am not certain where that is.
    I am sure all of us are hopeful that the situation is still 
at a point where strong, resolute action can bring a quick end 
to the warfare that threatens the very existence of the 
Macedonian state.
    In this regard, I consider the cease-fire and disarmament 
of Albanian rebels in the Presevo Valley, which was the result 
of negotiations among NATO, the Yugoslav Government, and the 
rebels as an encouraging example of what may be possible.
    But the other side of the coin is, unfortunately, just as 
conceivable. The so-called National Liberation Army now is 
occupying a suburb of Skopje and threatening to shell a nearby 
oil refinery, the airport, and police stations in the capital.
    If these attacks were to occur, widespread civilian 
casualties and further human rights abuses by frustrated 
Macedonian authorities would likely swing the country's ethnic 
Albanian population to active and full support of the rebels in 
my view. The fragile political coalition of Slavic and Albanian 
political parties would collapse, and Macedonia would descend 
in an all-out civil war, which could easily draw in its 
neighboring countries, eager to annex parts of a disintegrating 
state.
    Although the rebels claim otherwise, this chain of events 
may be the end game they have in mind. Whatever their goal, the 
worst-case scenario that we must prevent is the disintegration 
of that republic.
    It is not my intention this morning to bash anyone, to 
denigrate the hard work of the European Union, which has 
dispatched two of its highest ranking diplomats to the region, 
Javier Solana and Chris Patten. I am simply concerned that we 
are falling into the time-worn tendency of doing too little too 
late. Both the U.S. Ambassador in Skopje and a Deputy Assistant 
Secretary are also dealing with the Macedonian Government and 
they are highly competent diplomats. But neither of them has 
the international image of a former NATO Secretary General or a 
former Governor of Hong Kong.
    On the other hand, while I commend the efforts of Solana 
and Patten, I remain unconvinced that the EU alone has the 
credibility or the resources needed to forge a political 
solution in Macedonia.
    It is clear to me that this country must increase its 
involvement. The stakes in Macedonia are simply too high for us 
to choose to play a secondary role.
    Like it or not, the reality is that only the U.S. has the 
necessary military and political credibility with all ethnic 
groups to successfully manage and resolve the crisis in the 
Balkans. This unique American position is especially clear in 
Macedonia where the U.S. enjoys a store of goodwill among the 
Albanian population due to our leadership role in NATO's 1999 
air campaign to end ethnic slaughter in Kosovo.
    Mr. Chairman, I will put the rest of my statement in the 
record as if delivered now in the interest of time.
    [The prepared statement of Senator Biden follows:]

           PREPARED STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.

    It probably comes as no surprise to most people that the subject of 
my very first hearing as Chairman of the Foreign Relations Committee is 
the Balkans.
    But my long-held interest in the region is not unique on this 
committee. Under the able chairmanship of Senator Helms the challenge 
of building a durable peace in Southeastern Europe has received strong 
bipartisan support.
    This support stems, I believe, from the shared realization that 
stabilizing the Balkans is critical if we are ever to attain the oft-
stated but elusive goal of a Europe that is ``whole and free.''
    Conversely, my colleagues on this committee also recognize the grim 
fact that if we allow the Macedonian state to disintegrate, it could 
shatter the current peaceful relations in Southeastern Europe among 
Serbia, Bulgaria, Greece, Albania, and Turkey.
    Today's hearing has a two-part focus. First, we will discuss the 
extremely volatile situation in the Former Yugoslav Republic of 
Macedonia--a country that just one year ago, was considered a model of 
inter-ethnic cooperation, but now teeters on the brink of all-out civil 
war.
    Second, I would like our witnesses to take a broader look at the 
current scope of U.S. economic, military, and diplomatic engagement in 
the region and assess whether our effort until now is sufficient to 
adequately address the considerable challenges that include:

  <bullet> helping to rebuild severely damaged economies in Serbia, 
        Croatia, and Bosnia;

  <bullet> fully implementing the Dayton Agreement so that Bosnia and 
        Herzegovina becomes a genuine multi-ethnic democracy;

  <bullet> peacefully resolving the final status of Montenegro and 
        Kosovo; and

  <bullet> most immediately, pacifying and helping to reform Macedonia 
        so that all its citizens have equal rights and opportunities.

    Although Macedonia is the ``clear and present danger,'' I believe a 
comprehensive examination of our entire Balkan policy is urgently 
needed.
    Most troubling to me is that what is happening right now in 
Macedonia has an almost scripted familiarity to it. How many times now 
have we watched as a simmering crisis erupts into open conflict while 
the U.S. stands aside and waits for Europe to take the lead?
    In 1991, it was Croatia. In 1992, it was Bosnia. In 1998, it was 
Kosovo. And now, in 2001, it is Macedonia. And make no mistake about 
it--if Macedonia fractures, it will have the most profound impact on 
the Balkans of any of the region's five wars in the last decade.
    The administration, which initially responded to the crisis by 
augmenting U.S. emergency assistance to Macedonia and sending Secretary 
Powell to the region, now appears to be deciding on its policy.
    I am sure all of us are hopeful that the situation is still at a 
point where strong, resolute action can bring a quick end to the 
warfare that threatens the very existence of the Macedonian state.
    In this regard, I consider the cease fire and disarmament of 
Albanian rebels in Serbia's Presevo Valley, which was the result of 
negotiations among NATO, the Yugoslav Government, and the rebels as an 
encouraging example of what is possible.
    But the other side of the coin is, unfortunately, just as 
conceivable. The so-called National Liberation Army now is occupying a 
suburb of Skopje and is threatening to shell a nearby oil refinery, the 
Skopje Airport, and police stations in the capital.
    If these attacks were to occur, widespread civilian casualties and 
further human rights abuses by frustrated Macedonian authorities would 
likely swing the country's ethnic Albanian population to active, full 
support for the rebels.
    The fragile political coalition of Slav and Albanian political 
parties would collapse, and Macedonia would descend into all-out civil 
war, which could easily draw in neighboring countries, eager to annex 
parts of the disintegrating state.
    Although the rebels claim otherwise, this chain of events may be 
the end-game that they have in mind. Whatever their goals, it is a 
worst-case scenario we must prevent from coming to pass.
    It is not my intention this morning to bash anyone.
    I am simply concerned that we are falling into the time-worn 
tendency of doing too little, until it is too late. Both the U.S. 
Ambassador in Skopje and the Deputy Assistant Secretary who is also 
dealing with the Macedonian Government are highly competent diplomats.
    But neither of them has the international image of a former NATO 
Secretary General, or a former Governor of Hong Kong.
    On the other hand, while I commend the efforts of Solana and 
Patten, I remain unconvinced that the EU alone has the credibility or 
the resources needed to forge a political solution in Macedonia.
    It is clear to me that the United States must increase its 
involvement. The stakes in Macedonia are too high for us to choose to 
play a secondary role.
    Like it or not, the reality is that only the U.S. has the necessary 
military and political credibility with all ethnic groups to 
successfully manage and resolve crises in the Balkans. This unique 
American position is especially clear in Macedonia, where the U.S. 
enjoys a store of goodwill among the Albanian population due to our 
leadership role in NATO's 1999 air campaign to end ethnic cleansing in 
Kosovo.
    A proactive Balkans policy also means doing more to support the 
regional success stories, such as the new, democratic, post-Tudjman 
government in Croatia and prosperous, stable Slovenia, a country about 
to demonstrate that South Slavs can earn inclusion in the community of 
Western democracies.
    Furthermore, I am encouraged by the government of desperately poor 
Albania, in the southern Balkans, which has demonstrated admirable 
sophistication and restraint in pursuing a moderate foreign policy and 
disavowing any desire for a ``Greater Albania.'' We should continue to 
lend strong support to Albania's arduous political and economic 
transformation.
    We are very fortunate to have a stellar line-up of witnesses this 
morning. One would be hard pressed to assemble a more qualified group 
of experts on Macedonia, in particular, and on U.S. involvement in the 
Balkans as a whole.
    Testifying for the administration will be Ambassador James Pardew, 
currently serving as the Senior Advisor on the Balkans for the Bureau 
of European Affairs at the State Department.
    We also welcome two outstanding former soldiers who have served 
this country long and well.
    General Wes Clark in 1995 headed the military negotiations for the 
U.S. delegation at the Bosnian peace falks in Dayton, and in 1999 as 
NATO's Supreme Allied Commander in Europe directed the successful air 
campaign to reverse Milosevic's ethnic-cleansing in Kosovo.
    General William Nash, senior fellow and director of the Center for 
Preventive Action of the Council on Foreign Relations, commanded the 
multinational Task Force Eagle in northeastern Bosnia and later served 
as the United Nations civilian Regional Administrator for northern 
Kosovo.
    Our third panel includes Richard Perle, a Resident Fellow at the 
American Enterprise Institute, and Daniel Serwer, who directs the 
Balkans Initiative at the U.S. Institute of Peace. Both gentlemen have 
had distinguished careers in the U.S. Government--Mr. Perle here at the 
United States Senate and in the Department of Defense, Dr. Serwer in 
the Department of State.
    I look forward to the testimonies of all five witnesses.

    The Chairman. But let me suggest that in our first panel 
that testifying for the administration will be Ambassador James 
Pardew, currently serving as the Senior Advisor on the Balkans 
for the Bureau of European Affairs of the State Department.
    We also welcome two outstanding former soldiers who have 
served the country for a long time and served well.
    General Wesley Clark in 1995 headed the military 
negotiations for the U.S. delegation at the Bosnian peace talks 
in Dayton, and in 1999 as NATO's Supreme Allied Commander in 
Europe directed the successful air campaign to reverse 
Milosevic's ethnic cleansing in Kosovo.
    General William Nash, senior fellow and director of the 
Center on Preventive Action of the Council on Foreign 
Relations, commanded the multinational Task Force Eagle in 
northeastern Bosnia and later served as the United Nations 
civilian Regional Administrator for northern Kosovo.
    Our third panel includes familiar and well-known and well-
respected faces, including Richard Perle, a resident fellow at 
the American Enterprise Institute, and Daniel Serwer who 
directs the Balkans Initiative for the U.S. Institute of Peace. 
Both gentlemen have had distinguished careers in the U.S. 
Government: Mr. Perle here at the U.S. Senate and in the 
Department of Defense and Dr. Serwer in the Department of 
State.
    I look forward to the testimony of all five of our 
witnesses, and I will now turn to my friend, Senator Helms.
    Senator Helms. Thank you, Mr. Chairman.
    They gave me instructions when I came in to go through that 
door and turn left.
    The Chairman. That is one of the few times you have ever 
turned left, Mr. Chairman.
    Senator Helms. If I may be indulged just a few personal 
comments. I want to offer my genuine congratulations and best 
wishes to the new chairman of the Senate Foreign Relations 
Committee. Senator Biden is a very special personal friend, and 
I have pledged to him my full cooperation as he has given me 
throughout my years as the chairman.
    This committee, thanks to Senator Biden's cooperation, is 
in my judgment a genuinely bipartisan committee. It is for that 
reason that, while I enjoyed the previous arrangement, the 
gavel is in capable and responsible hands, and I congratulate 
you, sir.
    The Chairman. Thank you, Senator.
    Senator Helms. The ongoing violence in Macedonia, which is 
the subject, well known by everybody here, of this morning's 
hearing, provides an important window into the broader question 
of U.S. engagement in the Balkans. Until recently Macedonia was 
a model, albeit an imperfect one, for inter-ethnic coexistence 
and democratic rule in Europe's most war-torn region.
    Now, within the past few months, things have changed. 
Ethnic Albanian terrorists are today using violence in an 
effort to undermine Macedonia's stability. Indeed, I am 
impressed by the restraint with which the Government of 
Macedonia has responded to these vicious attacks. Now, I 
realize that there are legitimate Albanian grievances in 
Macedonia, but none warranting a turn to violence.
    This point has been wisely underscored by the refusal of 
Macedonia's leading ethnic Albanian parties to side with the 
terrorists. Instead ethnic Albanian parties have condemned 
violence and are working with other Macedonian political 
parties as part of a national unity government, and the 
potential success of this unity government is a threat to all 
ethnic extremists in the Balkans.
    Now, as Senator Biden has made clear, the United States has 
a vital interest in promoting peace and reconciliation in the 
Balkans, and that requires active American engagement in that 
region.
    So, the issue now is how can the United States most 
effectively utilize its political, diplomatic, and military 
assets to achieve those objectives in cooperation with the 
democratically elected government of that region and of our 
European allies.
    Now, President Bush and his administration have raised this 
specific question with me and with the chairman and others 
during their first months in office. I have been disappointed 
that there are some who are unwisely determined to misinterpret 
much needed policy reviews as American abandonment of the 
Balkans.
    Now, what I have seen to date is a supportive, but firm 
relationship with the new government in Belgrade, as well as 
expanded assistance to the Macedonian Government. To me, these 
relationships underscore the Bush administration's repeatedly 
stated determination to facilitate peace in this region.
    So, I welcome the administration's witness and the private 
sector panelists who have come this morning to offer their 
advice and counsel and their insights regarding the next steps 
that should be taken to define U.S. policy toward Macedonia and 
the rest of the Balkans.
    [The prepared statement of Senator Helms follows:]

               PREPARED STATEMENT OF SENATOR JESSE HELMS

    Before proceeding, I offer my genuine congratulations and best 
wishes to the new chairman of the Foreign Relations Committee. Senator 
Biden is a very special, personal friend, and I have pledged to him my 
full cooperation, as he has given me throughout my years as chairman.
    The Foreign Relations Committee, thanks to Senator Biden's 
cooperation, is in my judgement a genuinely bipartisan committee. It is 
for this reason, that while I enjoyed the previous arrangement, the 
gavel is in capable and responsible hands.
    The ongoing violence in Macedonia, the subject of this morning's 
hearing, provides an important window into the broader question of U.S. 
engagement in the Balkans. Until recently, Macedonia was a model, 
albeit an imperfect one, for inter-ethnic co-existence and democratic 
rule in Europe's most war-tom region.
    Within the past few months, however, things have changed. Ethnic 
Albanian terrorists are today using violence in an effort to undermine 
Macedonia's stability. Indeed, I am impressed by the restraint with 
which the government of Macedonia has responded to these attacks. I 
realize that there are legitimate Albanian grievances in Macedonia, but 
none warranting a turn to violence.
    This point has been wisely underscored by the refusal of 
Macedonia's leading ethnic Albanian parties to side with these 
terrorists. Instead, ethnic Albanian parties have condemned violence 
and are working with other Macedonian political parties as part of a 
national unity government. The potential success of the unity 
government is a threat to all ethnic extremists in the Balkans.
    The United States has a vital interest in promoting peace and 
reconciliation in the Balkans. That requires active American engagement 
in the region. The issue now is how can the United States most 
effectively utilize its political, diplomatic, and military assets to 
achieve those objectives in cooperation with the democratically elected 
governments of that region and our European allies.
    President Bush and his administration have raised this specific 
question during their first months in office. I have been disappointed 
that there are some who are unwisely determined to misinterpret much-
needed policy reviews as American abandonment of the Balkans.
    What I have seen to date is a supportive, but firm, relationship 
with the new government in Belgrade as well as expanded assistance to 
the Macedonian government. To me, these relationships underscore the 
Bush Administration's repeatedly stated determination to facilitate 
peace in this region.
    I welcome the administration witness and the private sector 
panelists who have come this morning to offer their advice and counsel, 
and their insights, regarding the next steps that should define U.S. 
policy toward Macedonia and the rest of the Balkans.

    Senator Helms. I presume that the chairman wants you to 
proceed, but I better not tell you to do that.
    I do not have the authority to do it anymore--yet.
    [Pause.]
    Senator Helms. I have been given the word to invite you to 
go ahead, sir. You may be heard. Thank you, sir.

  STATEMENT OF AMBASSADOR JAMES PARDEW, SENIOR ADVISOR ON THE 
   BALKANS, BUREAU OF EUROPEAN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Pardew. Thank you, Senator. I am very pleased to 
be here today to discuss the situation in Macedonia as well as 
more generally the U.S. engagement in the Balkans. With the 
chairman's permission, I will submit a longer statement for the 
record, but I will briefly summarize that statement.
    Macedonia remains critical for regional security and 
stability. The current conflict there must be resolved. 
However, no purely military approach can succeed here. Efforts 
to quell the armed insurgency must take place, therefore, 
within the framework of political measures that advance 
Macedonia along the path of necessary democratic, social, and 
economic reforms.
    The situation today in Macedonia is precarious. The 
insurgent National Liberation Army [NLA] launched its first 
attacks in northwest Macedonia in February. Since then, the 
fighting has continued off and on largely in ethnic Albanian 
areas. Most recently the NLA occupation of the town of 
Aracinovo near Skopje and its airport poses a potential threat 
to NATO supply lines.
    No one should mistake the position of the United States 
administration. We absolutely oppose the NLA's use of violence 
to undermine the democratically elected Macedonian Government 
and its leaders. We condemn the NLA's apparent effort to 
provoke an overreaction by the government against Albanian 
citizens in order to bolster their support from the ethnic 
Albanian community. NATO and the United States are not taking 
the side of any ethnic group in this conflict. We are on the 
side of democracy.
    The Government of Macedonia has a responsibility to protect 
its territory and citizens, but it must respond to extremist 
provocation in a measured and proportionate way that protects 
the lives of civilians. To do otherwise only falls into the 
trap, thus strengthening the extremists and accelerating the 
destructive ethnic polarization.
    Thus far in the conflict, thankfully, confirmed reports of 
civilian casualties have been limited.
    The ongoing military standoff makes all the more urgent the 
need for progress on the political front. We welcome President 
Trajkovski's plan for defusing the insurgency approved by their 
parliament yesterday. The plan contains confidence building 
measures aimed at reintegrating into Macedonian society the NLA 
fighters who disarm and give up violence in favor of a peaceful 
political process.
    Our objectives are to quickly stabilize the security 
situation in Macedonia while at the same time laying a 
foundation for a political solution acceptable to all ethnic 
groups in Macedonia.
    First, the political track. Advancing reforms that undercut 
the extremists' false appeal to the ethnic Albanian population 
is the key to Macedonian stability. Our diplomatic efforts have 
been active and are continuing at full throttle. Secretary 
Powell promoted progress toward a peaceful solution in meetings 
with President Trajkovski in Skopje in mid-April and in 
Washington in early May, along with President Bush. Then he met 
with their foreign minister in Budapest at the end of May. In 
addition, Secretary Powell and NATO ministers in Budapest on 
May 30 sent a strong joint NATO-EU message, reaffirming the 
international community's commitment and support for Macedonia.
    The administration remains intensively engaged in efforts 
to find a solution by working side by side with our European 
partners and implementing an effective strategy. EU High 
Representative Javier Solana has taken a leading role for the 
international community in pursuing discussions with the 
parties on a frequent and continuing basis.
    For our part, Deputy Assistant Secretary James Swigert is 
on the ground in the region and European capitals and is 
actively working with the Macedonian parties and with Solana.
    On the security track, our efforts also have been vigorous. 
In Kosovo, NATO is in the process of further strengthening its 
control along the Kosovo-Macedonian border. The U.N. in Kosovo 
has recently promulgated tough, new regulations on weapons 
possession and illegal border crossing that enhance the U.N. 
and NATO's ability to deal with the insurgency and its 
supporters.
    In Macedonia, NATO Secretary General Robertson has been 
actively engaged in resolving the conflict and will go there 
tomorrow with High Representative Solana and Mr. Swigert. He 
also has a personal representative, Ambassador Eiff, based in 
Skopje on a full-time basis. Further, the NATO Cooperation and 
Coordination Center has been established in Skopje to 
facilitate the exchange of NATO and Ministry of Defense 
operational information and to coordinate military assistance.
    Despite the current crisis in Macedonia, we should not lose 
sight of the fact that overall the picture in southeast Europe 
has begun to brighten dramatically recently. There is democracy 
in Croatia, removal of Milosevic last fall and his later 
arrest, province-wide democratic elections in Kosovo this 
November, and progress in building democratic institutions and 
healing the wounds of war in Bosnia.
    The administration's overall regional strategy is to bring 
southeastern Europe into the European mainstream. Where 
conflict or violence persists, our focus is on facilitating 
regional and European solutions, ones that are durable without 
continuing intervention. Bilaterally, as well as through 
multilateral mechanisms, such as NATO, the OSCE, the Stability 
Pact, and the Southeast Europe Cooperation Initiative, we are 
working to promote cooperation across borders rather than 
redrawing borders.
    Some basic elements of the administration's strategy for 
the region are to: promote democratic governance based on the 
rule of law and civil society, assist with economic reform 
leading to sustainable growth, maintain NATO's role, and 
advance integration into Euro-Atlantic institutions.
    To support the administration's strategy for fiscal year 
2002, the President has requested $711 million for U.S. 
assistance to the region, as well as $169.6 million for U.N. 
assessed peacekeeping costs in the region. Based on historical 
data, we expect our European and other partners to more than 
double that contribution.
    We are also working to ensure burden sharing in the 
military aspects of our engagement. Our troops in Bosnia are 
18.6 percent of the total and in Kosovo 17.4 percent.
    While we, of course, look for opportunities to conserve our 
resources whenever they are not necessary and to ensure that 
they are used efficiently, we are committed to doing our part 
within the overall context of the international community's 
support for building peace in the region. The administration 
has made clear that force structure decisions will be made in 
full consultation with allies and through the NATO process.
    As Secretary Powell has said, regarding our continued 
commitment to NATO military deployments in the region, ``We 
went into this together and we will come out together.'' He has 
also said that we are doing what we can to reduce the number of 
U.S. troops in Bosnia and Kosovo, but for now it is ``clear we 
are the glue that is holding this fragile situation together.''
    So we will not let down our NATO allies, who provide the 
bulk of the forces to the region. The costs of U.S. engagement 
in the Balkans are significant and must always be considered 
carefully, but the cost of failing to invest in European 
stability and to stand in solidarity with our allies would be 
far greater.
    Mr. Chairman, this concludes my oral statement, but I will 
be pleased to respond to any questions the committee may have.
    [The prepared statement of Ambassador Pardew follows:]

             PREPARED STATEMENT OF AMBASSADOR JAMES PARDEW

    Mr. Chairman, I am pleased to be here today to discuss with the 
Committee the situation in Macedonia, as well as, more generally, U.S. 
engagement in Southeast Europe. Beginning with Macedonia, I would like 
to lay out for you the Administration's efforts, together with our 
European Allies, to restore peace and stability to that country.
    The violent conflict on-going in Macedonia is a threat not only to 
Macedonia's security and democracy, but also to the entire region. The 
conflict threatens the progress being made by the international 
community in Kosovo, and it undermines the positive, stabilizing impact 
of our success in bringing about a peaceful, negotiated settlement in 
Southern Serbia.
    Macedonia remains a linchpin for regional security and stability, 
and the crisis there must be resolved. The roots of the problem in 
Macedonia, and thus the dimensions of a solution to the crisis, extend 
beyond the security sphere. No purely military approach can resolve 
this conflict. Efforts to quell the armed insurgency must take place, 
therefore, within a framework of political measures that advance 
Macedonia along the path of necessary democratic, social, and economic 
reforms. Working hand-in-hand with our European Allies, as well as with 
NATO, the European Union and the OSCE, the Administration is urging the 
Government of Macedonia to exercise restraint in its military response, 
while at the same time we are stressing the importance of taking 
concrete steps quickly to address legitimate minority grievances, 
ameliorate ethnic tensions, and strengthen Macedonia's multi-ethnic 
democratic institutions.
    While in this time of crisis our engagement in Macedonia demands a 
large measure of attention, it is only a part of our overall engagement 
in Southeast Europe. Within the context of the broad international 
commitment to securing peace and political stability in the Balkans, 
the United States continues to play a significant role--quantitatively, 
in terms of our contribution of resources, and qualitatively, in terms 
of our leadership.

                     CURRENT SITUATION IN MACEDONIA

    The situation in Macedonia is precarious. The insurgent National 
Liberation Army (NLA) launched its first attacks in northwest Macedonia 
in February. In April, the NLA renewed attacks and ambushes, killing 
Macedonian police and soldiers, occupying villages in northern 
Macedonia, taking hostages, and putting Albanian civilians in grave 
danger. OSCE and International Committee of the Red Cross (ICRC) 
efforts to evacuate civilians in some NLA-occupied areas have been 
blocked by the NLA, raising serious concerns that the NLA is 
intentionally keeping villagers where they are as human shields. The 
NLA has been intransigent in setting unacceptable conditions for 
civilian evacuation in negotiations with the ICRC. Despite 
announcements of cease-fires, the NLA continues to carry out violent 
attacks, for example, wounding nine soldiers June 11 in violation of 
its own cease-fire declaration. Currently, they are threatening to 
attack the capital, Skopje, shut down the airport, and spread the 
conflict to other areas of the country.
    The NLA dramatically escalated its attacks on June 8 by 
infiltrating and occupying a largely ethnic Albanian village--
Aracinovo--just five miles from Skopje and its airport, the location of 
a large contingent of U.S. and other NATO soldiers serving with KFOR. 
The occupation of Aracinovo poses a potential threat to NATO supply 
lines.
    No one should mistake the position of the United States: We 
absolutely oppose the NLA's use of violence to undermine the 
democratically elected, multi-ethnic Macedonian government and its 
leaders. We condemn the NLA's apparent effort to provoke an 
overreaction by the Government and the destruction of villages and 
killing of civilians in order to bolster their illegitimate claim to 
represent the ethnic Albanian community. NATO and the United States are 
not taking the side of any ethnic group in this conflict; we are on the 
side of democracy.
    It is incumbent on the democratically-elected Macedonian 
government, however, to use military force cautiously. We understand 
that the Government has a responsibility to protect its territory and 
citizens, but it must respond to extremist provocations in a measured 
and proportionate way that protects the lives of civilians. To do 
otherwise only falls into a trap, thus strengthening the extremists and 
accelerating destructive ethnic polarization. We and our allies have 
counseled the Government repeatedly on restraint and are watching the 
situation very closely. We have raised with the Macedonian leadership 
our concerns over documented reports of heavy-handedness and abuses by 
security forces, making it clear that the international community 
expects the Government to investigate seriously any reports of abuses 
and punish those responsible. In equal measure, we have urged the 
Government to take decisive steps to check the sort of reprehensible, 
ethnically-driven mob violence and vigilantism that has occurred in 
reaction to NLA killings. Such violence is totally unacceptable.
    Thus far in this conflict, thankfully, confirmed reports of 
civilian casualties have been limited. The Government has implemented, 
in cooperation with the ICRC, OSCE, and NGOs, a series of unilateral 
cease-fires, including most recently on June 11, seeking to minimize 
collateral damage and avoid civilian casualties. We applaud the 
Government's latest cease-fire as an important show of restraint in the 
face of provocations by the extremists, coming on the heels of the NLA 
occupation of Aracinovo. We will continue to impress upon Macedonia's 
political and military leadership the need for caution.
    The ongoing military standoff makes all the more urgent the need 
for progress on the political front. The formation of the National 
Unity Government on April 13, encompassing all of the major 
parliamentary parties, including both major ethnic Albanian parties, 
was an important step. This move has the strong support of the United 
States and the international community, as it clearly demonstrates the 
national political consensus in Macedonia against violence and in 
support of the political process.
    Progress in the political dialogue has been far too slow. Events on 
the ground have continually strained the functioning of the Government 
coalition and progress on the political track. The signatures of two 
Albanian parties on a political declaration May 22 with a spokesman for 
the NLA created a political crisis within the coalition. The 
international community, including the United States, rejected this 
declaration, which did not include even a rhetorical commitment by the 
NLA to renounce violence or lay down their arms. In meetings May 29 in 
Skopje with EU High Representative Solana and a senior U.S. diplomat, 
Deputy Assistant Secretary of State Swigert, leaders of the four 
coalition parties and President Trajkovski agreed to resume the 
political dialogue and made clear that the status of the May 22 
declaration was no longer relevant. The coalition parties agreed on a 
basic set of principles to move the political reform dialogue forward, 
ending the crisis in the coalition.
    Even in these most difficult moments, the ethnic Macedonian and 
ethnic Albanian political parties remain committed to advancing the 
political dialogue. Last week, Deputy Assistant Secretary Swigert 
visited Skopje with High Representative Solana and urged President 
Trajkovski and the party leaders to accelerate progress toward a 
package of reform measures. Defeating the insurgents requires that they 
overcome the issues that still divide them, and find consensus 
solutions that strengthen Macedonian civil society. High Representative 
Solana and Deputy Assistant Secretary Swigert met together with 
Trajkovski and the four coalition party leaders in their first joint 
meeting in over a month. All agreed to undertake an accelerated, 
comprehensive dialogue to seek a compromise solution on the political 
issues they had identified together, including the sensitive question 
of equal treatment of all citizens under the constitution. They are to 
report progress on June 25 to the meeting of the European Union General 
Affairs Council.
       objectives and strategy for resolving the macedonia crisis
    Our objectives are to help quickly stabilize the security situation 
in Macedonia, while at the same time helping to lay a foundation for a 
sustainable political solution acceptable to all ethnic groups in 
Macedonia. On a political track, our strategy includes using all the 
diplomatic tools at our disposal to encourage serious progress on 
political reforms that address legitimate ethnic Albanian grievances. 
On a security track, our strategy includes steps to help counter the 
insurgency by disrupting NLA support from Kosovo, helping to improve 
Macedonia's counter-insurgency capabilities, and encouraging a more 
sophisticated, comprehensive approach by Skopje. To assist materially, 
we have expanded SEED assistance for Macedonia this year to $38.4 
million and have requested $45 million for next year, and have 
accelerated our security assistance, which includes $13.6 million in 
2001 Foreign Military Financing (FMF) and $3.7 million in prior year 
FMF.

Political Track
    Advancing reforms that undercut the extremists' false appeal to the 
ethnic Albanian population is the key to Macedonian stability. Only 
through consensus-based confidence-building and reform measures, paired 
with ongoing cautious restraint on the security front, can the 
extremists be prevented from exploiting the fears and concerns of the 
local Albanian population for their own illegitimate, anti-democratic 
ends. Both President Bush and Secretary Powell have reinforced this 
message to President Trajkovski, while reaffirming the United States' 
commitment to stand by Macedonia during this difficult time.
    Our diplomatic efforts have been active and are continuing at full 
throttle. Secretary Powell advanced our efforts to encourage progress 
in meetings with President Trajkovski in Skopje in mid-April, and in 
Washington in early May, and when he met with Foreign Minister Mitreva 
in Budapest at the end of May. In addition, Secretary Powell and NATO 
Ministers in Budapest on May 30 sent a strong joint NATO-EU message 
reaffirming international community support for Macedonia. They called 
for an immediate end to violence, demanding that the extremists lay 
down their weapons and withdraw, expressing strong support for the 
Government, and urging significant, concrete achievements from the 
interethnic dialogue.
    We are working side-by-side with our European partners in 
implementing our strategy. EU High Representative Solana has taken a 
leading public role for the international community in pursuing 
discussions with the parties on a frequent, continuing basis, and as an 
indication of our close cooperation, he has welcomed U.S. participation 
on his team during missions to Skopje. Deputy Assistant Secretary 
Swigert is on the ground, and is actively working with the Macedonian 
parties and with Solana. Moreover, coordination among our diplomats 
based in Skopje and their European counterparts is intensive, as is 
their common engagement with the Macedonian leadership.
    We and the Europeans have been discussing closely with the parties 
over recent days specific ways to achieve more rapid progress than they 
have been able to make to date on a significant package of political 
reforms that will strengthen Macedonia's democratic institutions and 
undermine support for the insurgency. The parties are in agreement on 
the need to accelerate the reform dialogue under President Trajkovski's 
auspices.

Security Track
    Our efforts on the security side also have been vigorous. Through 
NATO and the UN Interim Administration Mission in Kosovo, we are 
supporting concrete efforts to deny insurgents safe-haven in Kosovo and 
to disrupt support networks. NATO is in the process of further 
strengthening its controls along the Kosovo-Macedonia border, as KFOR 
force requirements for the Ground Safety Zone diminish, freeing up 
assets for redeployment. The UN in Kosovo has recently promulgated 
tough new regulations on weapons possession and illegal border crossing 
that enhance the UN mission's and KFOR's ability to deter, investigate, 
arrest and prosecute those using Kosovo as a base for engaging in 
extremist activity, as well as insurgency supporters in and around 
Kosovo.
    NATO Secretary General Robertson has been actively engaged in 
helping to develop solutions to the current crisis, including through 
visits to Macedonia and through a personal representative, Ambassador 
Eiff, based in Skopje. A NATO Cooperation and Coordination Center 
(NCCC) has been established in Skopje that facilitates the exchange 
between NATO and the Ministry of Defense (MoD) of operationally 
relevant information, and that handles coordination of military 
assistance. NATO mans a 24-hour post within the MoD to carry out 
information exchanges. In addition, we are coordinating our own 
security assistance to Macedonia with Allies, in order to ensure timely 
and efficient efforts to better equip Macedonian forces to counter the 
insurgency in an appropriate manner.
    The OSCE, for its part, is playing a leading role in monitoring 
developments along the northern border area, and more broadly in 
offering advice and confidence-building measures to promote stability 
and inter-ethnic dialogue. We support the OSCE's work to help the 
people of Macedonia address concretely the issues on the inter-ethnic 
agenda, and we support giving the OSCE Mission appropriate resources to 
that end.
    Furthermore, we have encouraged the Government to examine lessons 
from the negotiated re-entry of Yugoslav forces into the NATO-
controlled Ground Safety Zone in Southern Serbia that might be 
applicable to the situation in Macedonia. That action in Serbia was 
achieved in a way that successfully and peacefully defused another 
ethnic Albanian insurgency.
    President Trajkovski outlined his plan for defusing the insurgency 
in a politically courageous address to parliament and the country on 
June 8. The plan contains confidence-building measures aimed at 
reintegrating into Macedonian society NLA fighters who disarm and give 
up violence in favor of the peaceful political process. We are 
encouraged by President Trajkovski's initiative and will support a 
sound plan. NATO is prepared to assist the Government in the 
development of this plan.
    While, at the end of the day, solutions must come from and be 
carried out by Macedonia's democratically elected leaders, we and 
others in the international community, including the EU, NATO, and 
OSCE, will do all we can to facilitate political solutions to the 
crisis.
    Mr. Chairman, to summarize our approach to the Macedonia crisis, 
the Administration will continue to confront the threat of ethnic 
Albanian extremism in Macedonia in the following ways:

  <bullet> Continued strong political support to the legitimate 
        democratic Government of Macedonia, and support for the full 
        development and rapid implementation of the Trajkovski plan, as 
        the best and only effective strategy to restore peace to the 
        country;

  <bullet> Close engagement with Macedonia's Government and party 
        leaders to advance the interethnic dialogue on necessary 
        reforms;

  <bullet> Continued material support through our SEED program to 
        promote interethnic dialogue, reconciliation, and reform;

  <bullet> Coordinated security assistance to enhance the capabilities 
        of Macedonian security forces, while urging the GOM to counter 
        the insurgent threat using only that force which is necessary 
        and proportionate, take steps to avoid civilian casualties, and 
        investigate security force abuses;

  <bullet> Active diplomacy to ensure that ethnic Albanians in 
        Macedonia, Kosovo, and in the diaspora understand the damage 
        being done to Albanian interests by these extremists, who are 
        using force to promote their political agenda; and

  <bullet> Support for UNMIK, KFOR and regional governments' measures 
        to deny extremists use of Kosovo or neighboring countries as 
        safe-havens.

        the broader context: u.s. engagement in southeast europe
    The Administration is committed to working actively to resolve the 
crisis in Macedonia because it remains committed to securing peace and 
self-sustaining political stability throughout the region. European 
stability is a vital interest of the United States, and the Balkans is 
part of Europe. Over the last decade, the countries of Europe, in 
partnership with the United States, have made breathtaking strides in 
creating a Europe truly whole and free. The glaring exception 
throughout much of that period has been Southeast Europe.
    Despite the current crisis in Macedonia, we should not lose sight 
of the fact that, overall, the picture in Southeast Europe has begun to 
brighten dramatically. Democracy has taken hold in Croatia; the FRY 
turned an historic corner with the victory of the Democratic Opposition 
over Milosevic last fall and more recently with his arrest; Kosovo will 
have its first province-wide democratic elections in November; and 
progress in building democratic institutions and healing the wounds of 
war continues in Bosnia. Given the horrific violence of former 
Yugoslavia's break-up, and its several successors' much-delayed 
transition from Communist structures of governance, it is not 
surprising that challenges remain.
    The diplomatic, economic, and military engagement of the United 
States has been central to the progress that has been achieved in the 
Balkans, and our engagement is continuing. U.S. engagement, however, is 
only part of a broader international, and especially European, 
engagement in the Balkans. European interests in stabilizing the region 
are understandably strong, as troubles in the Balkans send 
reverberations across the continent. As only one example, the wars in 
Yugoslavia sent hundreds of thousands of refugees streaming into 
western Europe. Consequently, the European investment in Balkan 
stability is strong. The European Union and its members are, for 
instance, the single largest group of donors to the Balkans. We support 
Europe assuming an increasing share of the leadership and 
responsibility for promoting regional stability as the region moves 
closer to Europe.
    The Administration's goal is to bring Southeast Europe into the 
European mainstream. Where conflict or violence persists, our focus is 
on facilitating regional and European solutions--ones that are durable 
without continued intervention. Bilaterally as well as through 
multilateral mechanisms such as NATO, the OSCE, the Stability Pact, and 
the Southeast Europe Cooperation Initiative, we are working to promote 
cooperation across borders, rather than redrawing of borders. Some 
basic elements of the Administration's strategy for the region are to: 
promote democratic governance based on the rule of law and civil 
society; assist with economic reform leading to sustainable growth; 
maintain NATO's role; and advance integration into Euro-Atlantic 
institutions.
    To support the Administration's strategy, for FY 2002, the 
President has requested $711 million for U.S. assistance to the region, 
as well as $169.6 million for UN assessed peacekeeping costs for the 
region. Based on historical data, we expect our European and other 
partners to more than double our contribution. We have worked hard to 
ensure appropriate burdensharing, and have had considerable success in 
ensuring that the Europeans carry the lion's share of the burden. For 
example, in Kosovo, for which we have the most precise data, our $94.3 
million pledge for FY 2001 is 14.5 percent of the total amount pledged. 
Europeans (the European Commission, EU Member States and Switzerland, 
and European members of NATO) have pledged 73.5 percent of the total.
    We also work to ensure burdensharing in the military aspects of our 
engagement. We have 7,571 American troops serving with the Kosovo 
Force--17.4 percent of the total, and 3,872 troops serving with SFOR in 
Bosnia--18.6 percent of the total there. In addition, we supply 605 
American civilian police for the UN mission in Kosovo--13.6 percent of 
the total deployed, and currently have about 145 serving with the UN 
mission in Bosnia--8 percent of the total. These are only a few of the 
quantitative indicators of our engagement.
    While we of course look for opportunities to conserve our resources 
whenever they are not necessary, and to ensure that they are used 
efficiently, we are committed to doing our part within the overall 
context of the international community's support for building peace in 
the region. The Administration has made clear that force structure 
decisions will be made in full consultation with Allies and through the 
NATO process. As Secretary Powell has said regarding our continued 
commitment to NATO military deployments in the Balkans, ``we went into 
this together, and we'll come out together.'' As he also has said, we 
are doing what we can to reduce the number of U.S. troops in Bosnia and 
Kosovo, but for now it is ``clear we are the glue that is holding this 
fragile situation together.'' So we will not let down our NATO Allies, 
who provide the bulk of the forces in the Balkans. The costs of U.S. 
engagement in the Balkans are significant and must always be considered 
carefully--but the costs of failing to invest in European stability and 
stand in solidarity with our Allies would be far greater.
    Mr. Chairman, this concludes my statement. I will be pleased to 
respond to the Committee's questions.

    The Chairman. Thank you very much, Mr. Ambassador.
    With the permission of my colleague, I would like to make, 
for this hearing, one amendment on the usual time. We usually 
do 7 minutes. I would like to suggest we do 10 minutes, if that 
is OK with you,
    Senator Helms. That is fine.
    The Chairman. Let me begin, Mr. Ambassador, by asking you 
about something you indirectly referenced, but I would like to 
be more direct. What do you think is the proximate cause of the 
violence in Macedonia now?
    Let me be more specific. In the Presevo Valley, when I was 
last there, which was about 4-5 months ago, our military 
analysis, KFOR's analysis was you were probably talking about 
three disparate groups, not coordinated, not part of a single 
operation, not funded and/or supplied exclusively by or 
predominantly by the KLA in Kosovo, but getting sympathy and 
some help from elements of the KLA, which is not a particularly 
unified organization now anyway in Kosovo.
    Would you in a similar sense analyze for me what the 
administration's view is of what is going on in Macedonia now? 
In other words, where is the insurgency coming from? Is it 
indigenous? Is it part of a larger movement? How extensive are 
these, as you referred to them, terrorists?
    Ambassador Pardew. Senator, first of all, let me start with 
the situation back before February. The Macedonian Government 
was in a dialog with its Albanian minority community, which is 
substantial. The estimates range from 25 percent to 35 percent 
of the population is ethnic Albanian. They were in a dialog. 
They had brought them into the government in many areas, but 
that dialog continued because their record in dealing with the 
rights of their minority citizens was not perfect.
    Beginning in February, while most of everyone's attention 
was focused on southern Serbia and the insurgency that was 
ongoing there, a group of extremists--exactly whether they were 
from Macedonia or originated in Kosovo is not quite clear--
began to form and to take military action against the 
government forces in northwest Macedonia.
    That insurgency grew. Our estimate now is that it is 
probably around 1,000 fighters. Its composition is complex and, 
as you indicated, decentralized in many ways, but perhaps more 
centralized than what we encountered in southern Serbia. About 
1,000 fighters. It has support both in Macedonia from the 
population and some from Kosovo and some from Albania, largely 
from those people who believe in the concept of a Greater 
Albania, a more extreme element of the Albanian community. I do 
not think that it reflects the views of the majority of the 
Albanian people either in Macedonia or in Kosovo or in Albania.
    Its strategy is the same strategy that we encountered in 
Serbia, that is, to provoke a repressive military response and 
to gain support from that response from the population. So, we 
are very concerned about these military operations.
    The Chairman. Do you have any sense that there is a unified 
objective among these 1,000 or so fighters?
    When I was recently there and as folks make their way 
through this country from the region, there are posited several 
scenarios. One is that there is an increasing desire on the 
part of some Slavs as well as Albanians in Macedonia to divide 
the country. Two, there is some sympathy in Serbia for such a 
division to take place. Three, the Albanian Government seems, 
from everything I can hear, unalterably opposed to any division 
and see it as their ruination.
    What do you think, what do you all assess is the objective? 
The stated objective was more constitutionally recognized 
rights, greater participation, et cetera. That is what the 
negotiating parties are working for.
    I met with the Macedonian leadership. I do not get the 
sense they understand or believe that they are prepared to make 
what I would think would be basic concessions needed to the 
Albanian minority. But the political parties have as an 
objective greater integration of Albanians fully into society 
and as full citizens, including taking the offending clause out 
of the constitution.
    But can you tell me, with that broad background, about 
whether or not you have a sense of what are the objectives of 
the roughly 1,000 personnel who are engaged in military 
activity? What is their objective?
    Ambassador Pardew. Senator, at its most basic level, I 
think the objectives of these people who are running this 
insurgency are personal power for themselves, and they are 
pretty flexible on what they would accept. I think some of them 
would like to see this romantic notion of a Greater Albania, 
but that's probably a very small element. I think some of them 
would like to partition Macedonia. But at the end of the day, I 
think they are seeking greater political influence inside the 
Albanian community both in Macedonia and Kosovo.
    Now, a lot of people jump to this idea of drawing lines 
somewhere in the Balkans as a solution to these kind of 
conflicts. We absolutely disagree with that. We have seen this 
before, and it has never worked out. We believe that concepts 
of individual rights and tolerance are the way to deal with 
these kinds of minority issues. So, we agree with the 
Macedonian Government and with those who believe that 
Macedonia's sovereignty includes its current boundaries and we 
do not favor any concept of a division within Macedonia.
    The Chairman. I am sure it is, but I hope that is being 
communicated in the absolute sternest possible way that can be 
done by our Government to the present Macedonian leadership, 
the Slavic leadership. This is more a statement than a 
question. It seems to me that they have to understand that this 
is a lose-lose situation for them. There is no prospect of 
continued U.S. help or involvement and, I would argue, little 
from the European Union if they conclude that partition and 
annexation or a movement anywhere else seems to be in their 
interest.
    The reason I pursue this is that one of the dilemmas is 
what do we do more than we are doing now, if we should do 
anything more. There are a number of things that theoretically 
can be done.
    Theoretically we could be much more aggressive in Kosovo 
with the sympathizers in identifying those persons, whether 
former KLA or not, who are engaged with and supporting this 
insurgency.
    There are others who suggest the possibility of having a 
version of a KFOR, an MFOR, in Macedonia while negotiations go 
on.
    And there are those who further suggest that we should be 
able to step up considerably our physical presence and our 
physical efforts in terms of how porous the border is. Having 
flown over that area a number of times--and as General Clark 
knows better than I do--in the winter you can see the trails. 
In the summer it is a fundamentally different situation.
    What I would like to know is what is the administration 
contemplating with our allies? Is it continued negotiations and 
no change in terms of the military operation that is being 
conducted by KFOR in the region? Are we going to step that up? 
Is there contemplation of moving forces into Macedonia? Could 
you talk to me a little bit about that for a moment?
    Ambassador Pardew. Yes, sir. First of all, in Kosovo there 
have been a number of changes taking place. The success that we 
had in southern Serbia has allowed KFOR to adjust some of its 
forces away from that border and to be more active along the 
border with Macedonia. They have had some success in 
interdicting the flow of arms and personnel in recent days.
    In addition to that, we have pushed for tougher UNMIK 
regulations, which have the force of law in Kosovo, in order to 
give our military and police forces the legal basis for 
detaining and holding people because there was not sufficient 
legal structure there to do that. So, we have tried to 
strengthen the legal structure that would allow us to hold 
these people.
    We are watching that situation inside of Kosovo very 
carefully because there is considerable support either 
originating from there or passing through there. We have 
emphasized that.
    Inside Macedonia, we are working with the Macedonian 
security forces. I mentioned the coordination center that has 
been established. Admiral Ellis has been there a number of 
times, and a NATO team has been there. But we continue to 
believe that the solution for the situation inside of Macedonia 
is a Macedonian solution and not a NATO solution. So, right now 
any kind of change to the NATO structure there is not on the 
table except for force protection for our troops who are there.
    The Chairman. My time is up. Let me just end by saying that 
I met with Generals Casey and Quinlan at Camp Bondsteel back 
when the Presevo Valley looked like it was about to explode. I 
was asked by them whether I would meet in Belgrade with Serbian 
officials, including the two people in charge of the area. The 
military guys had a very direct message, and the direct message 
was, not asking, but demanding that Belgrade integrate the 
Albanians in the Presevo Valley, make commitments of 
integration in the police force and other areas. It was not a 
request; it was a demand.
    I respectfully suggest that such a demand has to be made 
now in Macedonia relating to the changes that need to be taking 
place in the constitution.
    My time is up. I have gone beyond it. I yield to Senator 
Helms.
    Senator Helms. Thank you, Mr. Chairman.
    I heard some speculation on the radio, a couple of fellows 
talking about this very situation. One of them expressed fear 
that this would result in the violent collapse of Macedonia. 
Does the administration have that fear?
    Ambassador Pardew. I do not think we are anywhere near that 
kind of situation, Senator. It is serious. It is dangerous. The 
government there is having a very difficult time in dealing 
with it, but I do not believe that the NLA has the forces to 
cause the collapse.
    Senator Helms. Well, I share that.
    Maybe we ought to say for the record what is the value of 
Macedonia to our interest?
    Ambassador Pardew. We could tie it back to our interest in 
European security. It all stems from that. Fundamentally the 
whole issue of stability in the Balkans ties back to our 
commitment to Europe and our belief that European security is 
in our interest. So, to the degree that Macedonia is stable, 
southeastern Europe is stable, sir.
    Senator Helms. I have not had the pleasure of reading your 
full statement. I shall do that. But in there do you mention on 
June 11 the NATO peacekeepers operating along the border 
between Kosovo and Macedonia intercepted significant amounts of 
weapons and medicine and uniforms and other equipment? Do you 
mention that?
    Ambassador Pardew. It is not specified in the statement, 
but I just mentioned that there have been a number of successes 
along the border.
    Senator Helms. Well, that was intended for the National 
Liberation Army, was it not?
    Ambassador Pardew. It was, Senator.
    Senator Helms. That is a given.
    Ambassador Pardew. That is a given.
    Senator Helms. Well, my question is, do these seizures 
indicate that the supply of goods to the NLA is being cut off, 
or does it reflect an increase in the NLA's power? You could 
look at it either way.
    Ambassador Pardew. The NLA gets its support from a number 
of sources. Some things come out of Kosovo. Some come from 
Albania. All those borders are difficult, as the Senator 
mentioned. There are not enough troops over there to 100 
percent close that border. And some of it comes from inside of 
Macedonia and perhaps from areas on the other side of 
Macedonia. So, it has any number of places that it can get 
weapons. The weapons that are being used in this kind of 
conflict are not hard to obtain, and we have had some success 
inside of Kosovo, but if we close the door in Kosovo, there are 
other options for them.
    Senator Helms. What is the administration's opinion about 
who put together this shipment?
    Ambassador Pardew. We cannot trace back specifically that 
particular shipment. A lot of these weapons are coming from 
people who are simply in the arms market. We have to be lucky 
to catch them. But there are a lot of weapons for sale in this 
region. I cannot take this particular shipment back to a 
specific source.
    Senator Helms. I see.
    Let me move on to another question that was discussed in 
this radio discussion, which I found very interesting, about 
the discrimination of the Albanian community that the 
Macedonian Government needs to address and address directly I 
think as part of a comprehensive strategy to end this conflict. 
What is the possibility of getting that straightened out and 
restoring a measure of comfort and peace to the area?
    Ambassador Pardew. The Macedonian Government was working in 
an ongoing dialog with the Albanian community at the time this 
fighting broke out. That process was not moving rapidly enough 
in either our view or in the view of the Albanian community. I 
think this conflict has heightened the awareness of the 
government that they do need to take actions here. There are 
any number of inequities in terms of Albanian participation in 
the institutions of government, the police force, the military, 
their access to resources, their cultural identity, language, 
and so forth. Those issues are on the table in the discussions 
that are ongoing now with the legitimate and accepted political 
parties that the Macedonian Government has been dealing with 
all along.
    So, we are hopeful that this plan that President Trajkovski 
got through the parliament yesterday addresses all of these 
issues. It will be the topic of a major discussion beginning 
tomorrow at an offsite that the grand coalition parties will 
discuss outside of Skopje and try to move this political 
process forward. But there are recognized inequities and the 
Macedonian Government is trying to work rapidly to resolve 
them.
    Senator Helms. What role is our administration playing in 
trying to bring the parties together? What are you doing?
    Ambassador Pardew. We are facilitating those discussions.
    Senator Helms. Are you doing it by invitation?
    Ambassador Pardew. No. We are on the ground working 
extensively every day. We have a wonderful ambassador on the 
ground there. As I mentioned, a Deputy Assistant Secretary is 
working this full-time in the region right now and is traveling 
with the European parties who are working with the Macedonian 
Government to address these issues on an expedited basis. In 
fact, we are pushing them hard to deal with these issues. We 
pressed them to put together this plan, drawing from the 
successes that happened in southern Serbia. They have a plan 
and they will be dealing with it over the next 48 hours. We are 
hopeful that that will produce results.
    Senator Helms. Let me confess again that I have not had a 
chance to read your manuscript. Did you discuss in there the 
peace plan put forward, I think it was this past Friday, by the 
President of Macedonia? Did you discuss that?
    Ambassador Pardew. Yes, sir.
    Senator Helms. Do you state an opinion as to whether this 
provides a reasonable path toward a just and enduring end to 
the conflict? Do you think it will?
    Ambassador Pardew. This is the plan that was passed by 
their parliament yesterday and will be addressed in this 
conference beginning tomorrow. We do believe that this plan has 
the basis for a solution here, a positive and peaceful 
solution, and we are hopeful that over the next few days that 
that plan can be agreed upon by all parties and that it will be 
the basis for an agreement.
    Senator Helms. Mr. Chairman, I have no further questions. I 
yield back the balance of my time.
    The Chairman. Thank you.
    Senator Torricelli.
    Senator Torricelli. Thank you, Mr. Chairman.
    Ambassador, looking at this historically from the 
perspective of 20 years forward, will people be harsh with the 
United States that our policies in Kosovo and Serbia generally 
participated in raising unrealistically Albanian expectations, 
which unwittingly and unfortunately may have further fueled the 
problems?
    Ambassador Pardew. I think we have been fairly consistent, 
Senator, in our position of opposing extremist political 
activities. In that sense the United States and our European 
allies went into Kosovo, as General Clark will testify, for a 
proper purpose. There was ethnic cleansing going on.
    Senator Torricelli. I am not disputing that, nor is that my 
question, nor is my question our perception. My question is in 
the perceptions of Albanians, who have unfortunately now given 
themselves to violence and terrorist operations, could it be 
argued, out of the current context, that they have the 
unfortunate, misplaced perception that this was an opportunity 
for them, not on the scale of the Kurdish miscalculation, but 
nevertheless a miscalculation.
    Ambassador Pardew. There may be the misplaced view of some 
of them that we somehow support this, among some of them. But 
as I said in my statement, we want to make it crystal clear 
that the United States opposes the activities of the National 
Liberation Army in Macedonia. We do not support them.
    Senator Torricelli. That is not at issue. I understand 
that.
    Sometimes in this country, in deciding policies, the 
repercussions of them, the opportunities for the parties 
involved to misinterpret and miscalculate are enormous. It 
appears to me, while I do not quarrel with the intentions of 
the U.S. Government nor our announced policy in Kosovo, there 
are a series of echoes that come from this policy for a number 
of years from people who did not understand our actions or our 
intentions. This may be the first of them.
    The chairman asked you to define if there was a unifying 
set of objectives in the KLA. To the extent that they exist and 
you were to impose them on a map of the region, could you 
describe what that would look like?
    Ambassador Pardew. For those extremists in the Albanian 
community that believe in a Greater Albania, it includes all 
the territory where Albanians live and that includes southern 
Serbia, part of Macedonia, Albania, Kosovo and----
    Senator Torricelli. I take it almost all of Kosovo and 
parts of southern Serbia. And define for me how much of 
Macedonia would be in that.
    Ambassador Pardew. Well, probably the northern at least 
third maybe more. But then you get very large pockets of 
Albanian citizens inside of Macedonia. For example, the capital 
of Skopje has probably 200,000 Albanians that live there. So, 
that is the problem with all these proposals to draw lines on 
maps. There is no clean line that----
    Senator Torricelli. But if we were sitting in KLA 
headquarters--and every headquarters has a map on the wall to 
rally their forces--their map would include Kosovo, southern 
Serbia, at least the northwest of Macedonia and potentially 
some noncontiguous areas in Macedonia.
    Ambassador Pardew. Probably in the minds of some. I doubt 
that these guys have thought through it that far, and they 
certainly did not succeed in southern Serbia where we prevented 
a major insurgency from being successful.
    Senator Torricelli. Are there any areas of Greek territory 
in question?
    Ambassador Pardew. I am not sure about the Albanian 
population in Greece. I know there are some, but I am not sure 
it is----
    Senator Torricelli. Could you define for me the state of 
the problem of illegal Albanian refugees going into Italy and 
the posture of the U.S. Government on the question?
    Ambassador Pardew. Well, there have been refugees from the 
conflict. We are concerned about criminal activity from the 
region.
    Senator Torricelli. Are the numbers still substantial of 
people entering Italy legally and illegally?
    Ambassador Pardew. I am sure the Italians consider them 
substantial, Senator. I cannot give you a number. I can give it 
to you for the record, if you would like for me to submit it 
later.
    Senator Torricelli. Define for me the reaction and role of 
the Greek Government in the Macedonia issue and the support and 
whether they are lending diplomatically on behalf of the 
Macedonian Government.
    Ambassador Pardew. The Greek Government is trying to be 
helpful here. They have made a series of proposals. They are 
working inside the institutions that I mentioned, NATO, the 
OSCE, and others. They are working quietly and publicly to try 
to be helpful here. The Greek contribution here has been 
positive.
    Senator Torricelli. You suggested to the chairman that you 
did not think that this had reached the--not to put words in 
your mouth--critical mass. If indeed we reached that posture, 
the options available, outside of Macedonia that might be 
available, would then you envision an international force on an 
ad hoc basis, a NATO force? Do you envision that there would be 
bilateral help by any of the nations involved if indeed the 
Macedonian Government could not handle the situation?
    Ambassador Pardew. Well, Senator, as I said, I do not 
believe we are anywhere close to that. Before you would ever 
get to the kind of options that you are talking about, there 
are an awful lot of steps. There would be many alternatives in 
a kind of a meltdown scenario, and as to the issue of troops, 
as I said, that is not on the table now. We do not think we are 
anywhere close to requiring a consideration of that option.
    Senator Torricelli. I was not suggesting troops. I was 
suggesting whether there is an ad hoc group of countries in 
Western Europe who might be making contingency plans in case 
this was required or even the profound question for the Greek 
Government, if they were prepared to have a full scale civil 
war and the possibility of the fall of the Macedonian 
Government with a larger Albanian state on their borders. I 
would think for Greece, aside from what the international 
community might do, this is a very real bilateral problem for 
them.
    Ambassador Pardew. When you get into scenarios in which the 
regional states are putting forces in there on an individual or 
bilateral basis, those are scenarios that we want to try to 
avoid because they are very, very volatile.
    Senator Torricelli. Could you define for me, to the best we 
know, the sources of the weapons the KLA is using?
    Ambassador Pardew. Some of them are just local weapons. 
Some of them came from Albania. You recall several years ago 
the Albanian Government largely came apart, and the arsenals 
that were under the control of the military were looted. Some 
of them come from that. Some of them come from the 
international arms market, and some of them are bought in the 
region. So, there are a number of sources.
    Senator Torricelli. You do not see any evidence of weapons 
being provided by other states. To the extent they are coming 
from outside of Albania, they are being purchased in the 
markets.
    Ambassador Pardew. No, we do not see any evidence that 
there is an outside governmental----
    Senator Torricelli. And the funding sources to buy these 
weapons on the international market. Do you have some feel for 
what that might be?
    Ambassador Pardew. We are concerned about funding from the 
Diaspora for these activities.
    Senator Torricelli. Is that including the United States?
    Ambassador Pardew. Possibly.
    Senator Torricelli. Is this connected with the criminal 
activity in Italy?
    Ambassador Pardew. Well, anytime you get into these 
insurgencies and extremist activities, you usually get a close 
link with criminal activity, and I would suspect that that is 
true in this case as well.
    Senator Torricelli. Finally, Mr. Chairman, I will yield.
    I do hope, though, that the administration is sensitive to 
the enormous impact this problem is having internally in Italy 
in law enforcement, quality of life. One has only to visit any 
of the major cities of Italy. The Italians are living with this 
every day. This is not a theoretical problem. I hope there is 
some sensitivity to that as they try to deal with this on a 
humanitarian basis and enforce their own immigration laws, the 
integrity of their own borders.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Lugar.
    Senator Lugar. Ambassador Pardew, earlier today when the 
President had his press conference with Lord Robertson, he 
indicated, as you have this morning, that Lord Robertson would 
be going to the area and that the political apparatus ought to 
be allowed to move along. This was in response to questions 
much as we are asking of you today, about military force.
    You and the distinguished witnesses that will follow you 
have been involved in this process for a long time. Without 
oversimplifying it, during the former President Bush's 
administration, with problems in Bosnia, the hope then, in 
testimony before this committee, was that Europeans would, by 
and large, take care of the situation. In due course, 
Europeans, in fact, said that they would but then recanted and 
said that they could not, that the historical problems were too 
great and the United States' intervention and participation 
would be required in a big way.
    President Clinton, as he came in, tried to face up to this 
situation after, in the campaign as I recall, indicating that 
he was loath to do so. He was forced by circumstances to do so, 
and reluctantly we got into the Bosnia predicament and finally 
did so in a fairly large way. That is, with United States 
leadership, we determined a massive force was going to be 
required if that conflict was to be turned around because the 
ethnic violence had gone a long way, generated in many of the 
same ways as what we are describing today, namely an on-the-
ground situation of diverse ethnic people, stirred up by those 
who sought political power, and used that for their ends.
    Now, the reason I trace this today is that we have a new 
administration 8 years later, and the predicament now is 
Macedonia. In your testimony today you point out correctly that 
the United States, in the burden-sharing argument, which has 
been going on with NATO for a long time--we are down to 7,571 
American troops in Kosovo, 17 percent, and 3,872 in Bosnia, at 
18.6. That is satisfying to many of us in the Senate who have 
argued this all the time. In other words, our colleagues from 
time to time argue there should be zero U.S. forces. Those of 
us--I am one of them, the chairman is one of them--who feel 
that we have a very good reason to be there. We would say, of 
course, that we want our European allies to do their fair share 
and our European allies now say they are doing it. And they 
would cite these same relevant statistics.
    The problem, though, is if those who are trying to foment 
the disaster in Macedonia have the same calculation as those 
who tried to do it in Bosnia in earlier times, they would 
simply note once again what might be conceived as temporizing; 
namely, hope good things will show up, that the President's 
plan announced last week will work, that those who are 
perpetrating the violence will cease and desist because they 
will be discouraged, and that they will not be successful.
    But that never worked in Bosnia, unfortunately, and even to 
this day, there are good number of people, despite the long-
time leadership we have tried to give with our European allies, 
who persist, despite all the discouragement and with a war 
intervening.
    Is not another possible course of action that the NATO 
alliance indicate that this type of violence in Macedonia is 
unacceptable? That we, the NATO alliance, are prepared to land 
with as much force as necessary to eliminate all of the 
possibilities of there being a change to the border of 
Macedonia, to the character of the country at this point, both 
from the standpoint of European security, and that Macedonia is 
an integral part of this, as is the rest of the former 
Yugoslavia?
    But to temporize in a way that gives a temptation to these 
forces to continue, to keep testing to see if somehow this 
government might unravel or whether we really do mean business 
or whether the debate back here says we are tired of it all, 
that we want out of there and let the Europeans handle it, and 
the Europeans come to us again after an intervening period of 
several months and say, we just cannot make it, then we are 
back to the situation of why is Macedonia important. Well, it 
is important. As Senator Torricelli was pointing out it could 
become important if it brought further problems with Greece or 
others in the neighborhood.
    So, as you speculate maybe beyond your portfolio this 
morning, why is it not a better course simply to indicate that 
this type of violence, destined to unravel a nation state, is 
unacceptable? We have the forces to stop it. We will stop it, 
and the United States will take the leadership in doing that, 
even at the charge of being called unilateralist or 
hegemonistic, unless there is a preparation on the part of our 
NATO allies to step up with us shoulder to shoulder, indicating 
we are not withdrawing, that we intend to be part of this and 
we have assets that would be effective really in changing this.
    Ambassador Pardew. Well, the administration has been clear 
that we are not going to deal with these problems unilaterally 
either in or out. So, Senator, I do not think there is any 
promise that we would somehow take some unilateral action.
    As to NATO, NATO has made clear that these kinds of actions 
are unacceptable and that we object to the NLA and that we are 
taking actions in places where we have responsibility, that is, 
in Kosovo.
    But I would go back to the situation that we had in 
southern Serbia as kind of a model. We had about 1,000 
fighters. They were Albanian extremists. They were operating in 
the Ground Safety Zone. By working with the Serbian Government, 
the Europeans taking the lead incidentally, we did a lot of 
diplomatic work with them, but we were able to separate the 
insurgents from the population support base.
    These insurgencies are mainly about the people that the 
insurgents want to gain support from. If you're going to be 
successful here, the Government of Macedonia has to convince 
the Albanian citizens of Macedonia that that government is 
acting in their interests and that these fighters are not. We 
were able to accomplish that in southern Serbia through a lot 
of the confidence building measures and changes by the Serbian 
Government toward their Albanian population. The Macedonians 
need to do the same thing.
    Whether or not the United States or NATO should assume 
responsibility for an insurgency that is in Macedonia, somewhat 
created by the Macedonian Government in its treatment of its 
citizens, is a very serious question, and at this point I 
certainly could not recommend that.
    Senator Lugar. Well, it is a very complex question. That is 
one reason why we have temporized, maybe properly so. But as 
you say, each of the governments in that area might be faulted 
for being less than fastidious with regard to civil rights and 
treatment of all of their people. This is a problem of ethnic 
conflict in most of these situations. So, it is relative I 
suppose.
    In southern Serbia, as you are pointing out, were these 
NATO military forces that are there physically, or who was 
doing the dealing?
    Ambassador Pardew. No. The success in southern Serbia was 
brought about by convincing the Government in Belgrade that it 
had to change its policies toward the Albanian citizens in 
Serbia. They implemented or have begun to implement or 
committed to many of the confidence building measures that we 
are trying to get the Macedonian Government to do.
    Senator Lugar. So, that is our hope, that a parallel might 
exist from these reforms that came from Belgrade and that the 
reforms in Macedonia might measure up in the same way.
    The Chairman. Will the Senator yield on that point very 
briefly?
    Senator Lugar. Yes.
    The Chairman. We had a very different situation. The Serbs 
wanted access to that zone. Under an agreement, KFOR had 
control of that zone, No. 1.
    No. 2, we indirectly threatened that we would get ourselves 
involved within that zone.
    No. 3, we, not the Europeans, were the ones that let 
Belgrade know that if they were not willing to make the 
concessions they needed to make to the Albanian population, we 
would make it very difficult for them to recover economically.
    So, with all due respect, Mr. Ambassador, I do not think 
you have accurately stated the situation in the Presevo Valley. 
It does not exist in Macedonia now.
    Ambassador Pardew. It is not a complete parallel, Senator. 
But my point is that we do not see a military solution to this. 
We see a solution more on the order of the confidence building 
measures that were implemented in southern Serbia being 
implemented in Macedonia as a way to get at the fundamental 
problem, which is separating the insurgents from their 
population support base.
    Senator Lugar. Fair enough. But just following Senator 
Biden's intervention, which is very helpful, it seems to me 
that maybe this is already a part of your planning. Plan B or 
Plan C better be there as a contingency because I think if you 
were to rate our confidence that this is going to work on a 
scale of 1 to 10, it might be problematic at this point. Now, 
maybe we will have good luck, but we have not had much in that 
area over the course of time.
    So I would hope, without your laying all those cards on the 
table prematurely, that there is within our Government--and, 
hopefully, our Government in consultation with NATO--some very 
good contingency and one on which our administration is 
prepared to come to the Congress with the arguments to gain 
support.
    The worst of all worlds would be that finally Plan B or 
Plan C is implemented, but you or others come to the Congress 
and say, surprise. Sadly enough, this just did not work out. 
So, as a result we will need more of this or that. And the nay-
sayers over here will say, we have got you.
    In essence, this underlines the weariness we have of this 
problem, constantly being misled up the Hill and down the Hill. 
I just have some fear about this working out unless you and 
others are able to outline a course down the trail. If the 
political option does not work, if we are not lucky, what are 
we prepared to do? What are we prepared to advise our European 
allies to do?
    I thank you very much for your forthcoming answers.
    The Chairman. Senator.
    Senator Nelson. Mr. Ambassador, have our troops been placed 
in greater danger as a result of this conflict?
    Ambassador Pardew. We have about 700 Americans as part of 
the KFOR rear located near Skopje in a base camp there. There 
is a total of about 3,000 KFOR rear troops. They are 
responsible for logistics support to our activities in Kosovo. 
Obviously with fighting nearby, they are more exposed than if 
there was not fighting nearby, but we are confident that they 
have the means to defend themselves.
    Senator Nelson. How about our troops in Kosovo? Are they in 
greater danger?
    Ambassador Pardew. Most of the activity on the Macedonian 
border recently--there have been some exceptions. There has 
been an interdiction of some weapons, but a lot of this has not 
been in the U.S. sector. But clearly with some support coming 
out of Kosovo into Macedonia, they are more active in their 
patrolling and can encounter people who are carrying weapons or 
crossing into Macedonia.
    Senator Nelson. How about our U.S. aid? Is it helping 
Macedonia deal with this crisis? Political and economic.
    Ambassador Pardew. We are upping our assistance program 
next year to $45 million for Macedonia. I think it is $38 
million this year. We are asking for $45 million. We have a 
very active assistance program going there. We see assistance 
to the communities as one of the keys to success here with the 
civil population, the Albanian population. So, we are focused 
on that and we hope to increase our contribution next year.
    Senator Nelson. Tell me about what you envision for the 
future as the U.S. leadership role in trying to resolve this 
crisis.
    Ambassador Pardew. We intend to be fully engaged 
diplomatically. As I have mentioned, the President has been 
involved in this. The President is in Brussels today. This is a 
topic of discussion. Secretary Powell is there. Secretary 
Powell has been to Macedonia. President Trajkovski has been 
here to meet with President Bush and so forth. There has been a 
constant high level engagement in this particular situation, 
both with our European allies and with the Macedonian 
leadership. There have been exchanges of letters, and I can go 
on and on and on about the engagement of the very highest 
levels of this Government in this particular problem.
    Senator Nelson. Do you think that our leadership role is 
sufficient as it is now or does it need to come to a higher 
level such as the placing of a special envoy?
    Ambassador Pardew. Well, with the personal involvement of 
Secretary Powell and Secretary Rumsfeld has been there, in 
addition to having our Deputy Assistant Secretary on the road 
with Mr. Solana's team, we believe that we have adequate 
representation in the region.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Ambassador, I would like to just make a few quick 
parting questions here for you. I appreciate your time and I 
appreciate your candor.
    I might note that in the statement I put in the record, I 
ask the administration consider a special envoy.
    One of the great advantages of General Powell, beyond his 
obvious strengths, is he ran the biggest bureaucracy in America 
and in the world, and he negotiated it incredibly well. He now 
is in charge of one that is close to dysfunctional. I am 
confident he is going to make some very positive changes there.
    But at the expense of running the risk of offending the 
general sitting behind you, I think generals think like 
generals, and they think a little bit in these organizational 
charts. I know he does not like this notion of special envoys. 
But I noticed that they concluded that they have got to 
essentially do that in the Middle East. Powell cannot be 
everywhere. And sending Tenet was not an accident.
    I respectfully suggest that there is a need to explain our 
policy, especially in light of the way in which the 
administration has finally arrived at its decision to stay 
involved in the Balkans--there were some doubts about that, not 
only with our friends in the region, but even with our own 
military in the region. I have been there nine times. The last 
two times were, geez, what is going to happen? What is our 
mission? Are we going to leave? What is going on?
    I think it made this decision relative to Macedonia a 
little more difficult because everybody is playing brinkmanship 
in that region, as you know better than I do, Mr. Ambassador. I 
really think that you may very well conclude that, not 
withstanding your considerable prowess, there is going to have 
to be a higher profile showing that somebody has a direct ear 
of the President and this means we are there to stay.
    I would just like to suggest to you and to my friend from 
New Jersey, who had to leave, that if Italy thinks it has a 
problem now with immigration, you watch what happens if this 
ends up in a full-blown civil war. They ain't seen nothing yet. 
That is one of the reasons why we should stay involved.
    It will not surprise you I associate myself with the 
comments of my friend from Indiana. I think that temporizing 
has been a mistake. Every President from Bush through Clinton 
through this President, in my view, has engaged in it, hoping 
for the best and always having to do more.
    But I will conclude by saying that it may be that in the 
Presevo Valley it was not a military solution, it was a 
political solution. Dr. Haltzel and I spent several meetings 
and long hours, in one case 4 or more hours, dealing with the 
plan that got put together, going through the detail of what 
they had to do. I am not suggesting we had anything to do with 
putting the plan together, but going through the detail.
    But I would respectfully suggest the only reason it worked, 
it was backed up with military. It was backed up with the 
prospect on the part of those in Belgrade that they would lose 
more control of part of their country. In fact, their inability 
to move into this zone where they are not allowed to have 
forces was a very unattractive, continuing prospect for them, 
and KFOR was demonstrating some muscle at the time.
    So I do not suggest that there is a military solution, but 
I would suggest there is no political solution without a 
military backup in Macedonia.
    My concluding question to you is this. This hearing 
obviously so far has focused totally upon Macedonia, but it is 
about the Balkans generally. My one question is whether it is 
in the Republika Srpska or anywhere else in Bosnia, as well 
even in Kosovo, but particularly the Republika Srpska, our 
collective inability and unwillingness to arrest war criminals 
is the single most significant failure of the entire Western 
world? I think it is the single most significant reason why 
Dayton has not been able to be fulfilled. I think that it gives 
overwhelming sustenance to those who want to see it fall apart.
    You had Karadzic actually masterminding the debacle that 
took place when the mosque was going to be rebuilt in Banja 
Luka in the Republika Srpska which did, in one fell swoop, more 
damage in my view to progress in the region than anything that 
has happened in the last 5 years.
    You cannot answer this in all probability, but I sincerely 
hope the President, who is a strong fellow, is willing to take 
the political risk of pushing our allies to do the one thing 
that is within our power and the one thing many people, not 
just me, think could change the dynamics on the ground more 
than any other single thing we could do: arrest particularly 
two war criminals, Mladic and Karadzic. But there are others. I 
know we have made some progress, but none of it has been a 
consequence of our using force.
    I will conclude by saying that I cannot think of a single 
incident--and maybe the distinguished witnesses that will 
follow you, along with you, may be able to, but I cannot think 
of one--where anything has moved positively in the Balkans 
without a show of force and resolve, absolute resolve and an 
absolute certainty on the part of the parties that failure to 
move would result in the use of force, overwhelming force. This 
has been the case since 1992 in my view when I tried to 
convince, in the first instance, President Clinton to change 
the policy that had been put in place by President Bush.
    So, if you are willing, I would like you to respond now 
and, if not, for the record. What is the administration's 
position on the seeking of and the arrest of war criminals in 
the Balkans, particularly in the Republika Srpska and elsewhere 
in Bosnia?
    Ambassador Pardew. Senator, the administration agrees with 
you on the absolute need to get these, particularly the larger, 
more notorious war criminals, to The Hague to face justice.
    You mentioned some success. We have had some success. There 
are 50 or so of them who have, in fact, been brought to 
justice, to The Hague, and we have pressed the Government of 
the FRY to take care of Milosevic and continue to do that.
    I can only say that it is a high priority. We continue to 
work it publicly and privately, and we will continue to do so 
because, as you rightly point out, it is something that must be 
done if we are to have long-term progress in the region.
    The Chairman. I realize, Mr. Ambassador, our allies, with 
one exception, have been less than enthusiastic about these 
prospects. I understand that. But I think if the word went 
forward that you either are in custody or dead, it would be a 
nice message to send. I think we should pursue it as hard as we 
can.
    What amazes me the most--and I do not mean this as a 
criticism of this administration or any administration or any 
of my colleagues here--is the idea that we cannot look back 
over the last 11 years and see almost the exact replication of 
events in every instance from the situation in Croatia in 1991 
and 1992 and 1993 straight through to today. It really baffles 
me.
    I hope I am wrong. I doubt whether our European friends are 
ever going to take the initiative totally on their own. That is 
not to say that once we move, they do not share the burden. 
They are sharing the burden now. The question is are they 
willing to share the leadership? I respectfully suggest they 
are not. Without us moving, I think there is no movement.
    I will conclude by saying I think Senator Lugar is correct. 
I am willing to bet you my seat in the U.S. Senate that if in 
fact the President of the United States tomorrow would announce 
to our European allies that we were moving force, if we 
concluded it would be useful, into Macedonia, notwithstanding 
their strenuous objections, they would all move with us. The 
French cannot afford to let us move. The Germans cannot afford 
to let us move alone.
    This is one of those cases where I think it is going to 
require some real leadership. I hope this President is able to 
do what other Presidents did not do initially. Otherwise, I 
think 10 years of painful and basically successful intervention 
incrementally will go down the drain.
    But I appreciate your listening to me, Mr. Ambassador.
    Senator Nelson. Will the chairman yield?
    The Chairman. I would be delighted to.
    Senator Nelson. I would like for the chairman to state for 
the record, with this country's history of being concerned 
about human rights violations and with this country's vigorous 
leadership with regard to bringing to justice those who have 
perpetrated war crimes, going all the way back to the followup 
to World War II, what is the hesitancy in the chairman's mind 
on the part of this administration or the past administration 
for not absolutely insisting, as the chairman has proposed, 
that those be brought to justice for their war crimes, as was 
the insistence, for example, with regard to Milosevic.
    The Chairman. I would refrain from answering that. I think 
it is a good question that we can ask unfairly General Clark.
    I have my own views. I believe there are those who truly 
believe if we were to move that forcefully, we would cause more 
problems in the region. I think they are dead wrong. I also 
think you will find that there is a notion that Serbia 
continues to be the big enchilada. If Serbia is right, it is 
all going to be right with the world. Our willingness to lift 
the embargo on Serbia before Milosevic was delivered to The 
Hague I think was a mistake. But I think there are logical and 
very well-founded arguments why I may be incorrect about this.
    But I think that question would be better directed to 
General Clark, and I am happy to privately tell you my views.
    Mr. Ambassador, thank you very, very much for being here. I 
appreciate it. I am sure you will communicate our views and 
hopefully come back.
    Ambassador Pardew. Yes, sir, I will. It is an honor to be 
here on your first day as chairman.
    The Chairman. Thank you.
    Now, our next panel is General Clark and Richard Perle, two 
men with vast experience in the region. General, when you get 
situated, why do we not begin with you, and then, Richard, I am 
eager to hear what you have to say as well.

STATEMENT OF GEN. WESLEY K. CLARK (U.S. ARMY, RET.), CORPORATE 
        CONSULTANT, STEPHENS GROUP, INC., WASHINGTON, DC

    Mr. Clark. Well, thank you very much for the opportunity 
and the honor of appearing here before this distinguished 
committee, Mr. Chairman. I have an opening statement I have 
submitted for the record, and in the interest of time, I would 
just like to go through it very quickly. Just a couple of key 
points.
    I do think we are at another critical point in our decades-
long struggle to bring peace, stability, and democratization to 
southeastern Europe and specifically to the Balkans and former 
Yugoslavia. We have watched with great concern as the situation 
in Macedonia in recent months has disintegrated. Each time we 
hoped for a solution. We hoped that the Macedonian police and 
the military could contain it, that there could be some 
agreement worked out, that people would not respond as they 
have in the past ethnic crises there.
    But there is a degree, to use your words from the earlier 
panel, of temporizing in this. One thing we should know after a 
decade is if decisive action is not taken soon in these 
situations, they become politically intractable. In the 
Balkans, once Humpty Dumpty falls off the wall, it is very 
difficult to put Humpty Dumpty together again. We are right on 
the edge of a precipice right now.
    I am delighted to learn about the initiatives and the 
conference this weekend at Lake Ohrid and I hope that an 
agreement will emerge. But even if there is a political 
agreement, there is going to be a need to implement it, and it 
is going to take NATO backing, and that is going to take U.S. 
leadership and U.S. commitment and, no doubt, some NATO troops 
on the ground to help the Macedonian army get back into the 
areas in which there has been fighting with a minimum of 
bloodshed and further disturbance of the civilian population.
    So, I think the time is now to move ahead with a NATO 
mission supporting diplomacy in the region. There is no 
military solution, but we do need a diplomatic solution.
    Beyond that, I think the United States and NATO have to 
continue to stay engaged.
    In Bosnia, there are still hard-line radical elements 
controlling from behind the scenes. The NATO military mission 
there is absolutely essential to provide the backup and support 
needed for courageous international civil implementation. The 
pace of progress there is limited by the courage and the 
imagination of the civil side of this mission, and that is 
where U.S. leadership needs to be, as well as with our troops 
there.
    In Kosovo, I think we made enormous headway in the last few 
weeks with the finalization of the elections in November, but I 
think we have to recognize that international community 
reluctance to move ahead with the process for final status 
determination has been an important factor lending to conflict 
and further uncertainties in that region.
    Finally, just to address your point about U.S. leadership. 
I have always felt that we had very, very strong support from 
our allies in this region, but every nation has differing 
interests. We have a different interest than Europe, but they 
each have differing interests. It has been the United States' 
burden and opportunity to lead NATO. That leadership is 
required today, just as it has been in the past, and it is 
required to see NATO be effective in halting this latest 
outbreak of fighting.
    Thank you.
    [The prepared statement of Mr. Clark follows:]

      PREPARED STATEMENT OF GEN. WESLEY K. CLARK (U.S. ARMY, RET.)

                MACEDONIA AND U.S. TROOPS IN THE BALKANS

    Mr. Chairman, Senators, it is an honor to appear before this 
distinguished Committee to discuss the critical situation in 
southeastern Europe [the Balkans] today. In recent years, members of 
this committee have shown great sensitivity to U.S. policy toward 
Europe, NATO, and our continuing commitments in this volatile part of 
Europe [the Balkans]. Senator Biden, in particular, has for over a 
decade been seriously engaged in efforts to understand the region, 
prevent or end its conflicts, and provide sensible proposals to 
policymakers of several administrations and both parties. And let me 
say how grateful I have been personally for the strong support of so 
many members of this committee as our policies have developed from our 
initial negotiations at Dayton to end the war in Bosnia, through the 
many issues associated with NATO enlargement, our successful NATO 
military action to end Milosevic's campaign of ethnic cleansing in 
Kosovo, and finally to our continuing commitment of U.S. forces as part 
of KFOR.
    However, the work in the Balkans is not done, nor has the need for 
U.S. participation and, indeed, U.S. leadership diminished. In fact, we 
are once again at a critical juncture in the further evolution of 
events there, as we witness the tragic escalation of fighting in 
Macedonia. And, once again, as the international community attempts to 
resolve an emerging conflict with limited diplomatic missions and 
exhortations to restraint, the lessons of recent history run square 
against the pressures of contemporary politics. NATO has resisted an 
additional military mission in the Balkans, but all the pleas and 
counsel of EU and NATO political leaders have not and cannot end the 
fighting there. And as the fighting continues, the familiar pattern of 
excessive use of force and needless harm to innocent civilians has 
reappeared, promising that the continuation of conflict will make any 
political solution increasingly difficult between increasingly 
alienated and hostile ethnic groups.
    For most of a decade the United States has worked to protect and 
strengthen Macedonia's democracy. Beginning in 1993 we deployed U.S. 
troops along the border with Serbia as part of UNPREDEP, the UN 
Preventive Deployment Force. It was a mission held up as an example of 
a new U.S. and international strategy, Preventive Defense. In 
conjunction with the United Nations, we successfully used a small 
military mission, only some 500 U.S. troops and an equal number of 
Scandinavians, to signal to Milosevic our determination that conflict 
would not spread to Macedonia, and to reassure the fledgling democratic 
forces there that they could work together peacefully in promoting a 
new system of government in an historically troubled region.
    During the anxious moments of NATO's military actions against Serb 
ethnic cleansing in Kosovo, NATO and the U.S. reassured the Macedonian 
government that we would stand with them. I recall President Gligorov, 
with whom I met many times, reflecting that 50 years hence, Serbia 
would still be a neighbor, and asking if NATO would also still be there 
to help his country if need be. But despite our reassurances, the 
Macedonians were troubled, and they were right to be. During the 
fighting, Milosevic targeted Macedonia, inciting pro-Serb elements to 
raid the United States, German and several other NATO members' 
embassies in Skopje. Three U.S. soldiers were kidnapped in northern 
Macedonian by the Serbs in an action that has never been satisfactorily 
explained but has all the ear-marks of a special forces kidnapping. And 
finally, Milosevic used the ``refugee bomb'' against Macedonia, 
deporting hundreds of thousands of Kosovar Albanians to Macedonia in an 
effort to destabilize the government there.
    With help from NATO, the UN, and a number of NGO humanitarian 
assistance organizations, Macedonia coped successfully with the 
refugees. And throughout the long ordeal of the NATO campaign Macedonia 
provided us the use of their airspace for our operations, their airport 
for reconnaissance flights, their road network, and many facilities for 
staging the NATO force which was to enter Kosovo when the fighting 
stopped. That force, staging in preparation of peace, also helped 
convey the threat of ground invasion and was critical in convincing 
Milosevic to give in to NATO's demands. Macedonia also hosted the base 
areas for many KLA elements, and served as a logistics base linked to 
quiet infiltration routes, even though they feared that eventually the 
radical Albanian elements would turn against them someday. Without the 
continued and active support of the Macedonian government the NATO 
action in Kosovo would likely have failed. The United States and its 
NATO allies truly are in debt to the courage and skill of the people 
and government of Macedonia. We owe them more than we have thus far 
repaid.
    Now, as the democracy we fostered and upheld rapidly disintegrates 
in ethnic fighting, the United States faces another critical juncture 
in its Balkan journey; to take responsibility, with cooperation from 
the Allies, in preventing renewed conflict and preserving Macedonia's 
territorial integrity through a military and expanded diplomatic 
mission, or to continue to try to just scrape by, hoping against 
reality and the experience of the past ten years that the fighting will 
die out as a result of EU-led mediation, skillful Macedonian government 
diplomacy and military pressure exerted by Macedonian troops in their 
own country. I cite this as a United States decision, for surely it 
cannot be implemented successfully without U.S. encouragement and 
participation, if not U.S. leadership.
    Why should the burden of leadership fall on the United States once 
again? Because I am convinced that, absent America's moral and 
political commitment to broker a settlement, spreading ethnic violence 
will lead to Macedonia's collapse, releasing passions that will focus 
on partitions and redrawing of borders that will prove destabilizing 
for the region and require an international military presence to police 
it indefinitely. If Europe matters to the United States, the 
administration and Congress will need to act on the premise that the 
most urgent and challenging problems for the transatlantic community 
begins with southeastern Europe; preventing the revival of ethnic 
cleansing, ensuring democratic development that will generate self-
sustaining regional stability, and sustaining the continued vitality 
and viability of NATO.
    At this point it seems clear that the situation on the ground is 
going to continue to deteriorate unless NATO actively intervenes. The 
troops of the Macedonian Army lack the equipment, skills, and 
leadership to meet the challenge posed by the Albanian fighters. Their 
continuing efforts to resist rebel incursions appear to have done 
little more than destroy civilian property and convince thousands to 
flee their homes and villages. About 10,000 refugees streamed into 
Kosovo over the weekend alone as the insurgents moved into the suburbs 
of Skopje, adding to the over 20,000 that UNHCR reported had previously 
fled into Kosovo and the nearly 20,000 internally displaced within 
Macedonia. UNHCR has announced that it is planning for 150,000 
Macedonian refugees in Kosovo this year. Every strike against Albanian 
civilians further radicalizes the Albanian population and generates 
more recruits for the Albanian fighters. It is not realistic to expect 
KFOR to control the border from inside Kosovo. The difficult terrain 
and numerous trails and villages will combine to frustrate efforts at 
total control with anything like the number of KFOR troops currently 
available. And even if we could ``seal'' that border (which we cannot), 
other support and assistance would still reach the fighters through 
Albania, Bulgaria, or from within Macedonia itself.
    It is not too late however, for NATO to act in conjunction with a 
U.S.-led peace initiative with the ethnic Macedonians and Albanians. 
This plan would involve sending a senior Bush administration official 
with the clout and personality to broker an agreement among the 
Macedonians and engage Washington and the EU in its implementation. It 
would balance preservation of the Macedonian state--the key aim of 
ethnic Macedonians--with a political and economic agenda for overcoming 
deep-seated discrimination against the ethnic Albanians--the aim of the 
moderate Albanian political leaders and declared objective of the 
insurgents. The EU would be asked to commit and disburse one hundred 
million dollars in economic assistance immediately for the next six 
months to buy time for the reforms to take hold. Crucially, it would 
also require a NATO monitoring force, including a U.S. contingent, to 
supervise the security components of the agreement, creating confidence 
among both ethnic groups and allowing passions to begin to subside.
    NATO should move immediately to reinforce its forces along the 
Kosovo-Macedonian border, and should extend its operations into 
Macedonian territory itself, in an effort to displace the Slavic 
Macedonian troops who are now attempting to fight against the Albanian 
guerrillas. In conjunction with the Macedonian effort the purpose of 
the NATO action would be to provide joint patrols and help the 
government of Macedonia establish a presence in the northern areas of 
its own country. This will entail some risk to NATO troops, but if 
accompanied by the right rules of engagement and political efforts, the 
risk can be minimized. Simultaneously, the United States must create 
some ad hoc organization to develop a multifunctional team which can 
help the government of Macedonia meet the needs of its own citizens. 
This would include surveying Albanian and Macedonian areas, helping to 
provide local security, augmenting the Macedonian courts, educational 
system and public health measures while assisting in the development of 
new rights and guarantees to remove the actual and perceived ethnic 
injustices which lie at the root of this quarrel.
    The urgency of action in Macedonia is accompanied by the need to 
continue active measures to promote peace and democratic standards 
elsewhere in the region. In Bosnia, U.S. and NATO troops remain vital 
elements in continuing implementation of the Dayton agreement. But the 
international community must also muster increased determination 
through the Peace Implementation Committee to insist that the 
provisions of Dayton be implemented and that those who obstruct 
implementation be removed from positions of authority, whether elected 
or not. This is a matter of the increased and effective use of the 
various authorities the High Representative has been granted, but is 
frequently reluctant to use. Without courageous civil implementation 
actions, the mission in Bosnia will not be successful. But courageous 
civil implementation also requires strong NATO presence. Continuing 
troop cuts at this time run the risk of further undercutting the 
mission in Bosnia.
    In Kosovo, U.S. forces are an essential part of KFOR and must 
continue to remain active. International delays in undertaking the 
process leading to final status determination in Kosovo have 
contributed to instability and renewed fighting in the region. 
Hopefully the elections now scheduled for November will help channel 
Kosovar energies into constructive channels, but the international 
community must also recognize and prepare for the reality that after a 
decade of repression and a vicious ethnic cleansing campaign, most 
Albanians will not feel secure until they are independent. In the 
meantime, hard work remains building an effective system of laws, 
police and courts which can assure Western standards are met during and 
after the transition. The recently proposed return of Serb refugees is 
a necessary but difficult step along the way to final status. Unless 
accompanied by reciprocal measures of justice and compensation by the 
Serb government in Belgrade to redress the wrongs of the Milosevic era, 
and especially the detained or still unexplained missing persons, much 
trouble can be anticipated. This trouble may well be focused on the 
area around Kosovska Mitrovica, an ethnically mixed, but effectively 
partitioned town inside the French sector. France has maintained a 
stubborn refusal to countenance multi-ethnicity in the town and its 
institutions; in the short run, this avoided violence and Serb flight, 
but in the longer term it has created a tinderbox of resentments which 
can only be dealt with by adding some American units to the KFOR mix to 
dampen Albanian assertiveness and to assure even treatment of the 
ethnic groups.
    And this brings us to the all-important problem of Belgrade. Here, 
our European allies have been less than helpful, too quickly willing to 
grant concessionary treatment to the Serb government and slow to insist 
that it fully meet its international obligations in dealing with the 
International Criminal Tribunal, the many missing or detained Albanians 
and the continuing undemocratic practices and standards of its security 
forces. In fact, at the current pace, there will be years of work 
before Serbia can meet Western standards. Delivering Mr. Milosevic and 
the other indicted war criminals to The Hague is a necessary first 
step, and should be required before the United States agrees to 
participate in the late-June donors conference on assistance to 
Yugoslavia. But a decade of crime and corruption will require a 
thoroughgoing effort directed at most public institutions in 
Yugoslavia. International assistance should be organized and provided. 
And in the process there should be no consideration that somehow the 
future of Bosnia is connected to the final status of Kosovo. Bosnia-
Herzegovina must remain a whole and unified country. On this point the 
international community must be unrelenting: no change of boundaries by 
force.
    In facing these current challenges, however, the international 
community must accurately see the progress that has been made. 
Yugoslavia was always an uneasy federation, welded together under iron 
rule by Tito, and broken apart as an unscrupulous Milosevic pursued 
Serb domination and his own personal political power. A vicious war in 
Croatia and Bosnia is over. The legal basis for a unified Bosnian state 
is largely present in the yet-to-be-fully-implemented Dayton Agreement. 
A cold-hearted campaign of ethnic cleansing was halted in Kosovo. A 
civil war was deterred in Montenegro, though the international 
community exceeded its bounds in telling the Montenegrin people that 
they should vote against independence from Yugoslavia. The failure of 
the United States to prevent the violent collapse of Macedonia, 
however, would threaten to undo some of these accomplishments. Western 
intervention has generally been late, consistently undermining 
moderates and foreclosing more democratic and stabilizing options. Many 
in the region have suffered and died while we debated . . . but 
eventually we have acted and have generally been effective. Much has 
been accomplished; our investment in European stability needs to be 
safeguarded.
    Southeastern Europe is not a quagmire; our efforts here are no 
``Vietnam.'' Milosevic would still be in office today had we not 
stopped him finally in Bosnia and Kosovo. However, as President Bush 
begins his first trip to Europe since taking office, he finds new war 
clouds gathering over Macedonia. It is now time for NATO to act, 
again--this time to halt the fighting in Macedonia--and this will again 
require American leadership. We must also persevere and not leave 
behind friends such as Montenegro, whose support for us was severely 
tested by Belgrade's pressures. Surely, all of this is not asking too 
much of the world's remaining superpower.

    The Chairman. Thank you.
    Mr. Secretary.

  STATEMENT OF HON. RICHARD PERLE, RESIDENT FELLOW, AMERICAN 
              ENTERPRISE INSTITUTE, WASHINGTON, DC

    Mr. Perle. Thank you very much, Mr. Chairman. Thank you for 
inviting me to participate in this hearing.
    Let me just say at the outset that I do not think you said 
anything this morning with which I disagree, and you said a 
great many things with which I agree emphatically and am 
greatly encouraged to hear the chairman of the Foreign 
Relations Committee say.
    In particular, I think you are exactly right in reminding 
us that we have managed somehow to repeat the same mistake over 
and over again. Macedonia today looks very much like Croatia, 
Bosnia, and Kosovo. If we should have learned anything from a 
mistake made three times, it is that delay and indecision do 
not produce solutions; they only make matters worse. And that 
is the situation we are in today.
    I also agree emphatically that our European allies cannot 
and, in the end, will not solve the problem in Macedonia. It is 
only the United States that has the stature and the credibility 
to foster a solution. We cannot do everything, but there are 
some things we can do. In the current case in Macedonia, I 
believe that without very decisive American involvement, there 
will be no solution.
    The pattern that has developed of handing responsibility or 
acquiescing in the assertion of responsibility by the 
Europeans, which persists until it becomes undeniable that the 
Europeans have failed, is a pattern we must not repeat because 
by the time we recognize the failure of the Europeans, the 
costs are much greater, the tasks much more difficult and, in 
some cases, even unsurmountable.
    Last let me say that a delay, even by days or weeks, in 
coming to grips with the current situation in Macedonia could 
prove disastrous. It is not often that things move so rapidly 
that one feels compelled to say immediate action is necessary. 
But as I understand the situation in Macedonia today, there is 
a very great danger that the combination of guerrilla attacks 
and an unsophisticated response, politically and militarily, if 
I can put it that way, by the Macedonian Government will create 
the kind of polarization and radicalization that will turn 
Macedonia into a catastrophe like Croatia, Bosnia, and Kosovo.
    I do not think it has reached that point yet, but every day 
that goes by makes matters worse. As the Macedonian army 
struggles to deal with the insurgency, it is not a particularly 
well-trained army, not particularly effective in dealing with 
this type of insurgency. As the victims of that military action 
include a great many Albanians who have not in my view 
decided----
    The Chairman. Exactly.
    Mr. Perle [continuing]. To opt for a radical solution, the 
situation only gets worse.
    Now, what can the United States do? I do not think there is 
any substitute for direct involvement at the highest levels of 
our Government. A tragic mistake, in my view, was made in the 
first Bush administration when the Secretary of State said in a 
memorable phrase, ``We don't have a dog in that fight.'' We did 
have a dog in that fight. We just did not understand it at the 
time, and we must not make that mistake again. We have a dog in 
this fight and it is containing what otherwise is going to be 
tragic bloodshed and instability and a situation that could 
spread and ultimately will require our involvement. So, sooner 
rather than later, Mr. Chairman, and I would hope that the 
administration would move quickly and decisively.
    The pattern that has developed of the European Union 
looking for a political solution, with the notion that NATO is 
somehow waiting in the wings, seems to me a formula for 
catastrophe. If you are in on the military solution, you better 
be in on the political solution as well. This division of 
responsibility in which the Europeans, who frequently lack the 
will to take decisive action, somehow depend on our coming to 
the rescue later, simply will not work. I think we need to be 
at the front and center of both the political, diplomatic 
activity and ultimately the implementation, which may well 
require peacekeeping forces involving the United States.
    The last thing I want to say is that I was greatly 
encouraged to hear what you had to say about the importance of 
taking the mission of bringing war criminals in Bosnia to 
justice. There is no excuse for the fact that we have failed to 
do so to date. It is fundamentally a failure of will. When we 
find the will to do it, we will find the means to do it, and 
there will not be, as you rightly observe, a resolution of that 
terrible tragedy in Bosnia until Karadzic and Mladic and 
others--but those principally--are brought to justice. Every 
day that goes by is a day wasted in that regard.
    The Chairman. I thank you both.
    Let me make clear and see if you all agree with the 
rationale that lies behind my strongly held and long-held, as 
General Clark knows, conviction about arresting war criminals.
    I think what we--not you fellows--fail generally to 
understand here is that there are an awful lot of people in the 
Balkans, Bosnia-Herzegovina, Kosovo, Macedonia, Albania, who 
are inclined to do the right thing, even with the ethnic 
divisions that exist, who have reached the rational conclusion 
that there is no such thing as capable of being a Greater 
Albania, that there is no Greater Serbia, that it is not in the 
cards, it does not work, and they do not want to be part of it, 
but who are unwilling and unable to move in the direction of, 
for lack of a better word, reconciliation because you have 
people like Karadzic and Mladic out there who are the force 
against which they have to move politically. So, even if you 
had an enlightened leadership in the Republika Srpska, which 
for a brief, shining moment we thought we might have, if you 
have to push off against Mladic or before that Milosevic to 
make your case with your own people, you are always going to be 
trumped. You are always going to be trumped.
    I think what many of my colleagues, from my perspective, 
fail to understand, what many in the successive administrations 
fail to understand is that this ethnic hatred, although real, 
is not totally pervasive until engaged.
    To be more precise, my last several trips to the region, 
meeting with ordinary Kosovar Albanians, ordinary Albanians 
within the former Yugoslav Republic of Macedonia, I found that 
they do not want to be faced with the choice of a Macedonian 
Government that does not give them their full rights and all-
out civil war because they know the end of civil war is a dead 
end for them. They are smart enough to know there is a dead 
end. There is no possibility of a Greater Serbia, a Greater 
Albania in the region. And they are smart enough to know that.
    But when they are forced to choose between a Slavic 
government overreacting to an insurgency that comes from 
radicals among them, and the rebels, they choose their brother. 
At the end of the day, it is clans. They choose their brother.
    So, what I have been trying to communicate, as best I can, 
which is obviously not very successful so far, to this 
President and this administration and the last President, is 
the time to get in is before they have to make that choice. I 
am willing to bet you anything that if there were, for lack of 
a better phrase, an MFOR, a Macedonian force, in the very 
Albanian villages that are now being occupied, they would be 
welcomed now.
    So, I would like you two to talk about those two items. 
What is the damage caused by these leaders who engaged in 
genocide who are still on the scene, still at large? And what 
is your attitude about how the larger Albanian population in 
the Former Yugoslav Republic of Macedonia would respond to any 
type of intervention against those rebels, if they are 1,000, 
whatever the number is? Try to educate me and my colleagues 
about the dynamic there, if you would.
    Mr. Clark. Mr. Chairman, if I could begin. First of all, 
with respect to the war criminal issue in Bosnia, I think Mr. 
Karadzic has still got Republika Srpska tied up in his web of 
corruption, intrigue, murder, and general political violence. 
Information I have received over many years indicates that he 
and his family are quite wealthy as a result of control of 
cigarettes, liquor, and other illegal activities, and have been 
for some time. In addition, people who have supported him have 
engaged in all kinds of illegal intimidation and other physical 
threats to politicians. So, it is not only that he controls the 
politics, he controls the economics. He and his organization 
have a choke-hold on Republika Srpska. Much of that money at 
one point was going back to Milosevic. I have no idea where the 
money is going at this point, but it seems clear that he still 
has a grip there. Witness the mosque episode. So, the arrest of 
Karadzic, the taking down of that organization from top to 
bottom is a first order of business in my view for moving ahead 
to full implementation of the Dayton agreement. It has got to 
be done.
    Now, it has not been done. It has not been done for lots of 
complicated excuses. The excuses vary from time to time 
depending on who is asked and who is in authority. Without 
going into specifics that are beyond what we can discuss here 
in this open session, let me just say that when the United 
States determines that it really is going to take action, it 
will find the appropriate means to do so. And there are many 
means available.
    The risks of taking action are far less than what many in 
this Government and elsewhere have suggested, and our allies 
will come along with us in these risks to take down this 
organization. They may need a little military assistance, but 
they also need some political top cover from the alliance's 
leader. So, I think it is an appropriate time to go after this 
problem again with renewed dedication and determination that we 
are going to see this problem of the war criminal control in 
eastern Bosnia-Herzegovina broken and these people arrested.
    Now, Mr. Kostunica was democratically elected, but there 
remain war criminals in Serbia. They need to be turned over to 
The Hague, not just Milosevic. Mladic is there. Ojdanic is 
there, the general who directed the ethnic cleansing in Kosovo. 
Mr. Sainovic, who was the Minister for Kosovo and controlled 
the secret police activities, is there, and there are a couple 
more who have already been indicted. The records need to be 
opened up and turned over to the International Criminal 
Tribunal in The Hague. Mrs. Del Ponte needs to be invited in to 
help heal the terrible scars that hyper Serb nationalism and 
the criminal activity associated with it has afflicted on the 
region.
    The United States needs to take the lead in insisting our 
European allies support this as a precondition for going 
forward with any additional assistance. It is time to stop the 
business as usual with Serbia. They have got an enormous 
internal political problem. They have got a tentative fledgling 
step toward democracy and Westernization. We have got to help 
those in Serbia who want to take a full step forward, not just 
deal with the sort of interregnum here which is currently 
struggling with what to do. So, we need to give them a decided 
push.
    Now, what I found in all of my time is that the ethnic 
cleansing leads to ethnic fear. There is a political reaction, 
a reality in the Balkans that conflict brings extremes. It 
promotes the extremes for reasons of fear. So, people go to 
their own kind not because they like them better, but because 
they do not know who is on the other side who is going to come 
in in the middle of the night, take them out of their home, 
shoot them, and kill them, and so forth. It is a very normal 
human reaction. That is why this kind of violence cannot be 
permitted where we, the United States, and for all that we 
believe in in human rights can make a difference, we have got 
to do so. So, we have got to stop this before this polarization 
hits the Macedonian people as it has hit the others.
    The Chairman. Richard.
    Mr. Perle. Mr. Chairman, I think your observations about 
ethnic hostility are quite right. You understand the dynamic 
very well.
    There is plenty of potential for ethnic hostility, even 
hatred, but it does not appear by spontaneous combustion.
    The Chairman. A good way of putting it.
    Mr. Perle. It is a policy and it has been a policy 
viciously implemented, first by Milosevic and then by others.
    There is an extraordinary description a book written some 
years ago by David Reiff about Bosnia. He matter-of-factly 
recounts a conversation he had with a young Serb paramilitary, 
a man in his 20's. The fellow says to David Reiff, let me tell 
you how we did it. He said, we would go into a village. We 
would find the first Serb home. We would get the guy out of 
bed. We would hand him a gun, and we would take him to the 
nearest Muslim home and we would say, you shoot him or we will 
shoot you.
    The Chairman. Exactly. No one believed that.
    Mr. Perle. That is how it got started and that is how it 
was perpetrated by paramilitary organizations. There was 
nothing nationalist or dignified or noble about the Serb forces 
operating in Bosnia. These were thugs. These were gangsters. 
These were killers. They were there to profit, and they 
exploited the fears that General Clark has just referred to for 
their own purposes.
    The great danger now in Macedonia is that while an 
arrangement is conceivable, plausible in which a greater 
cultural freedom is extended to the Albanians--they want 
university education of a certain kind. They want their own 
language accepted as an official language. They have a list of 
reasonable proposals. While one can imagine an arrangement in 
which those proposals are acceded to and responsible ethnic 
Albanians who are already part of the government sustain their 
opposition to the insurgency, that may not be true a few weeks 
from now----
    The Chairman. Exactly.
    Mr. Perle [continuing]. When the fighting has become even 
more intense.
    I do not believe that there is significant support for a 
Greater Albania in Macedonia. If anything, there is rather more 
support for ideas about partition, which have begun to emerge 
recently, with specific partition proposals, which is part of 
the dynamic you are talking about, things deteriorating 
rapidly.
    There is, I think, still sufficient interest on the part of 
all parties in Macedonia to achieve a reasonable solution, but 
it is not going to happen without our direct involvement and it 
may not be a possibility a month or 2 from now.
    The Chairman. Gentlemen, what I have found in my trips--
again, I do not pretend that because I have been there a number 
of times and because I have a son who is working there in 
Pristina now, I have any overwhelming insight. But I have 
observed a repetition of the following conversation no matter 
with whom I speak, literally regardless of their ethnic 
background, and it goes something like this. It says, we know 
the Europeans are not going to stay here. We have had 500 years 
of this. We know at the end of the day they really do not want 
us part of Europe. This is how the conversation goes. Whether 
this is true or not, this is what I get.
    Any accommodation we make, whomever I am talking with, 
whether I am talking to Thaci or whether I am talking to Rugova 
or whether I am talking to Kostunica no matter who it is, it 
goes further and it says, although Kostunica says it a 
different way, that unless you are going to be here leading the 
Europeans, nothing is going to happen. So, basically why should 
I make any concession on anything when I know at the end of the 
day it is going to fall apart if you are not here and leave? 
And I am just left further back than I was before I would have 
been had I given up nothing that you have asked me to give up 
in order to make some accommodation.
    I can remember coming back on my first trip. They could not 
get me out of the airfield in Sarajevo. So the French took me 
up to a place called Kiseljak. It was up, as the general knows, 
up through the mountains. A beautiful, beautiful ride up. We 
got halfway up the mountain and an old acquaintance of yours, 
John Ritch, was with me. And General Rose was in this armored 
vehicle with me, kind enough to get me to the French 
helicopter. We got halfway up the mountain to a beautiful 
little village with homes that looked like they were probably 
3,500 square feet, absolutely manicured, washed windows, tiled 
roofs, homes that any American would be happy to live in. There 
were about 15 on each side of the road with what looked like a 
general store/gas station in the middle.
    We got stopped by this very attractive woman. She had these 
beautiful blue eyes with a carbine stuck to my head. She 
literally walked up to the door. It was a Serb checkpoint. If 
it were not for the fact that she had a gun in her hands, I 
thought she would be introducing herself, like welcome to my 
village.
    You could look down literally either side of the street and 
you would see three or four perfectly manicured homes and 
lawns. This was in the spring. And then a hole in the ground 
with a chimney sticking up. Another home, a hole in the ground. 
I mean, literally, not figuratively.
    I was told at the time that exactly what Reiff cited was 
what happened. The Serbs came in and said, your neighbor you 
have been living next to for years and years, go put this 
plastique on the side of their house. If you do not, we are 
going to do it to you. So, in this little village of probably 
no more than--I do not know--maybe 50 homes, you had only Serbs 
left with, in that case, the Muslims being either blown up or 
the Croats who may have been there being blown up or given time 
to get out.
    The reason I recite that is I do not think there is a full 
appreciation here for how this works because you listen to our 
colleagues, Richard, and they talk about this being 
spontaneous. As you said, one thing it is not is it is not 
spontaneous. It is not this thing that automatically you wake 
up one morning and decide this Croat, this Albanian, this Serb 
I have been living next to for 35 years I am going to go shoot.
    So, it leads me to this question. Kostunica, whom I have 
met with, as you folks have, a number of times now, was not 
very happy with me when he was here last, nor were several of 
my colleagues. We met in Senator Lugar's office as the 
administration was making the decision whether to partially 
lift the embargo, notwithstanding the fact they had not met the 
third condition that we had set.
    And Kostunica made a very compelling argument on its face, 
that at least convinced a number of my colleagues, which was if 
we did not come in and help them now, this fledgling democratic 
government, that we would radicalize the situation in Belgrade 
and Serbia generally. And the very people we did not want 
running Serbian affairs would take hold because we were 
imposing on them a condition they could not meet politically 
and survive. Ergo, in order to get where we wanted to go, we 
should lift the embargo, give them a bye on delivering 
Milosevic or, for that matter, anyone else right now to The 
Hague.
    How would you gentlemen respond to that argument?
    Mr. Clark. Well, it is a variation of many of the same 
arguments given many times about political expediency in the 
Balkans. But the difference is that they have had another 2 to 
3 months now to work these issues. So, we should be asking for 
progress on complying with the International Criminal Tribunal 
and standards. So, I would say that it is time for them to 
deliver Milosevic and to take actions against the rest of the 
war criminals that are there.
    There is no doubt that in doing so, there are risks. There 
are risks in the security forces that people who are guilty of 
crimes who have not been charged, but should be charged will 
see this as the beginning of the end for them. They will no 
doubt oppose it. But there are other people who see this as the 
beginning of the beginning for Yugoslavia and will support it. 
It takes courage and it takes risk to move a society as 
Yugoslavia has to move, as Serbia has to move.
    Those risks have to be taken on a continuing basis. It is 
time for another move forward. We accept the risks. We want 
them to accept the risks. We are there with our arms 
outstretched, welcoming them, but they have got to move.
    Mr. Perle. Senator, I expect your instinct was right, and 
if we had said we are not going to lift the embargo until 
Milosevic has been delivered to The Hague, they would have 
delivered Milosevic to The Hague. I rather doubt that it was 
beyond their capacity to do it. If it was, then I think the 
appropriate answer was to say, we are not going to invest in a 
government that cannot deliver a war criminal on the scale of 
Milosevic to The Hague. But this argument for weakness is used 
frequently in many contexts.
    I wish we had said, we will lift the embargo for 3 months 
and revisit this 3 months from now when we see whether you have 
been able to deliver Milosevic. But it is almost always a 
mistake to abandon a principle of the importance of that one on 
the grounds of some short-term expedient move. And what you do 
not do when you cut a deal like that is encourage the forces on 
the other side.
    The Chairman. Exactly.
    As you both know, I have an inordinately high regard for 
your opinions, whether you are in agreement or disagreement 
with my views, and I mean that sincerely. And I could keep you 
here all day because of my interest in your knowledge. But let 
me just ask you to comment on one last observation on my part, 
and I obviously may be very wrong.
    I have argued with whomever would be willing to listen to 
me in Belgrade--and they are not anxious to listen to me, 
although I have been there a number of times--that the key to 
the salvation of Serbia or Yugoslavia is to allow their 
citizenry to come face to face with what they intentionally or 
unwittingly enabled to happen. Otherwise, they will never come 
to grips with this constant sort of self-flagellation about how 
they are the mistreated people in the region.
    I would offer as an illustration that the vast majority of 
Serbs are prepared to deal with the truth the public reaction 
within Serbia when that truckload of bodies was pulled out of 
the Danube River. As it was pulled out, literally bodies came 
pouring out, some 35 or 40, and then they said it was 70-some 
bodies. The reaction in Belgrade, the reaction in Serbia was 
fairly overwhelming. They found abhorrent, the vast majority of 
Serbs, what had been done in their name. For the first time, 
there began to be discussion on the part of the Belgrade 
Government that maybe they were now going to try Milosevic for 
war crimes. Up to then, they had said they wanted no part of 
that.
    Would you, in conclusion to my questions, talk to us a 
little bit about what you believe would be the response of the 
Serbian people to a fair and open trial of Mr. Milosevic and/or 
Mladic and/or Karadzic and/or any of the people you named in 
The Hague. Do you believe it would cause the kind of backlash 
and revulsion and the leadership would be thrown out for having 
sent them, or do you believe it would be viewed in Serbia as a 
whole as something that they had to get behind them? Do you 
have an opinion on that?
    Mr. Clark. I agree with the way you formulated the 
question, Mr. Chairman. I noticed one thing during the war, 
that Milosevic always tried to protect his military from the 
real knowledge of what was going on.
    The Chairman. Even his military.
    Mr. Clark. Even his military, his units, his troops. They 
had special hardening programs for some of the ethnic 
cleansers.
    The Chairman. Explain for the record what hardening 
programs means.
    Mr. Clark. They were trained to cut the throats of goats 
and other things so that they could hear screaming like this so 
they could then be hardened. These were not troops. These were 
those paramilitary thugs that went through these training camps 
that were supposedly toughened up.
    Milosevic knew that what was going on was not acceptable to 
the Serb people. I think it needs to see the light of day. I 
think the best place to do that is in The Hague, and I think 
that it would be acceptable to the Serb people and soon 
recognized as not only acceptable but welcomed and essential as 
a way of moving Serbia into West where it belongs.
    Mr. Perle. I agree with that. I think the overwhelming 
majority of Serbs are decent people who would respond to a 
properly conducted trial with the same sense of outrage and 
shame that would be inspired in a non-Serb. A clear recounting 
of what went on, a great deal of which would come as a shock to 
most Serbs, would be therapeutic, beneficial for the future of 
that country and for the future of their society. I do not at 
all believe that this would turn out to be detrimental to the 
political leaders who permitted it to happen.
    The Chairman. I thank you both.
    I yield to my colleague from Florida.
    Senator Nelson. Mr. Chairman, you have convinced me by your 
eloquent words. So, I would like to discuss with you after the 
hearing what I could do to assist you as the chairman of this 
committee to articulate that it is clearly in the United 
States' interest and intention that we should bring these war 
criminals to trial.
    Just for the record--and I thank both of you for your 
testimony--do you think that the strength of NATO will be 
undermined by the withdrawal of U.S. troops from the region? 
You all have stated it. I want to just get it nailed down for 
the record.
    Mr. Clark. Senator, I would like to say for the record that 
I think NATO would be seriously undermined by the withdrawal of 
U.S. troops from the region. It will not be NATO after that.
    Mr. Perle. I agree with that. There is no NATO without the 
United States.
    I do not believe that that is in contemplation, and I think 
it is important to distinguish between the willingness of the 
United States not only to meet NATO commitments but to lead the 
NATO alliance. There is no other country capable of leading the 
NATO alliance and practical questions of exactly when and where 
we should have what type of military presence.
    I think it is a mistake, as some in the press have done, to 
equate adjustments to a deployment with a political statement. 
There was an incident not long ago where we withdrew some 
Americans because the element of the force they supported had 
been, by agreement, withdrawn because we took out some tanks 
and helicopters I think. Therefore, we brought back the crews. 
This was misunderstood as an indication that the United States 
was somehow diminishing its role or shirking its 
responsibility. So, I think it is important that we look, with 
some precision, at what we are doing. There is lots of room for 
sensible adjustments in the nature of our deployments, but 
American leadership and a willingness to be there when it is 
necessary to be there is absolutely indispensable.
    I half facetiously but half seriously argued with some of 
our European friends recently that the most convincing argument 
for the United States remaining in full force in Bosnia would 
be a willingness on the part of the NATO forces in Bosnia to 
arrest war criminals. That is, let us have a serious mission 
that we can get enthusiastic about, and the United States will 
be there and it will be there in force.
    So, there is no NATO without the United States.
    Senator Nelson. Right. And as you stated, you do not think 
that it is serious that there would be a withdrawal, but you 
would recognize that there is the perception that the 
possibility of withdrawal is being talked about.
    Mr. Perle. Yes, I think over-talked about, frankly.
    Senator Nelson. That would say a lot about the importance 
of the Balkans to the United States were there to be any 
serious discussion about withdrawal.
    Mr. Perle. Indeed.
    Senator Nelson. Do you believe that the proposed European 
rapid reaction force would be a credible peacekeeping force 
without U.S. participation?
    Mr. Clark. Well, I would be very concerned if--let's take a 
hypothetical example--we wanted a Macedonian force and we 
turned that over to the European Union without U.S. 
participation for a couple of reasons.
    No. 1, the leading role of the United States in the 
alliance says that the things that are important to the 
alliance the United States is doing. So, this would 
automatically put the Macedonian mission as somehow less 
important than our other activities.
    Second, it is simply a fact that the United States is 
viewed as the most trustworthy power, particularly by the 
Albanians in the region, but also by others, but particularly 
by the Albanians. So, our ability to work with the Albanians 
would be crucially dependent on the presence in that force of 
an American element.
    Third, I would not like to see the complicated command 
arrangements which such a force would lead to where you would 
have one force reporting to NATO, through a NATO commander. The 
other force would have to have an ad hoc commander. It would 
report perhaps sideways to NATO, but ultimately to the European 
Union. We would have the U.S. Ambassador to NATO trying to sit 
in on European Union council meetings to find out what guidance 
that force was being given, and there would always be the 
opportunity for friction. It is an old principle of the 
military art, that anytime you draw a boundary between units, 
you create a weakness. Well, this is a boundary not between a 
unit, but between organizations, and it would be unnecessary 
and, in my view, most unwelcome.
    Mr. Perle. Senator, this is perhaps a subject for another 
occasion, but I have grave misgivings about the practical 
consequences of the European Union developing the conceit that 
it will have an independent military capability. The rapid 
reaction force is neither rapid nor forceful. It is at best 
60,000 troops who already exist and who are already assigned to 
NATO, capable of operating after 60 days mobilization, which is 
a long time, and as a practical matter, in most situations, 
dependent on support from NATO, which is to say from the United 
States.
    I think it was a mistake for the United States to say that 
we would provide essentially guaranteed access to NATO assets 
because that made it easy for the European Union to go off in 
the direction that I think ultimately will prove unsuccessful. 
Had we said to them if you want the kind of independence you 
are talking about, you had better be prepared to acquire the 
logistics, the intelligence, and the other capabilities that 
they continue to look to the United States to provide, had they 
faced that reality, they might have chosen a different course 
and I think ultimately will wind up with a different course.
    So, this is a matter that I would very much hope this 
committee would take a very close look at because the Europeans 
are groping for an identity, and they have gone off on what I 
think is a dangerous excursion. We are all saying to one 
another, everything is fine as long as NATO and the EU can 
cooperate effectively, but the practical problems that arise 
are enormous. If we are not careful, we will see two structures 
develop that in theory can work together, but in practice will 
find it enormously difficult to do so. The danger is that we 
will only discover the inadequacy of that arrangement when it 
is tested in a situation where we cannot afford to fail.
    Senator Nelson. Thank you to both of you for very important 
testimony.
    Thank you, Mr. Chairman.
    The Chairman. I can say to you, Mr. Secretary, that if I am 
chairman for another couple months, I do plan on holding 
hearings on that subject. As General Clark has heard me say--he 
is a better diplomat than I am, though--at the Perm Rep 
meeting, I indicated that instead of calling it ESDI, which 
originally it was called, they should call it the 3P program. 
They looked at me. I can now say this publicly because it is 
long past. I said they should call it the 3P program. I 
remember Solana looking at me and saying, what do you mean? I 
said, it should be called pride, procrastination, and 
procurement. And one of the reasons why some of us maybe should 
be a little more upset than we have been is our feeling that 
they are unlikely to be able to produce what they say they are 
going to produce. But we will have hearings on that subject.
    Let me conclude with three brief points because we have one 
other panel, and I have trespassed on your time too much 
already.
    General, I could not agree with you more on a point that 
you made about the final status of Kosovo. In my meetings with 
Thaci and Haradinaj and others in Pristina, I came away with no 
illusions about how tough particularly Haradinaj was and how 
smart he was, by the way. You told me that, but he looks like a 
farm boy that could lift a tractor out of a ditch all by 
himself, and when you get talking to him, you find that he is a 
pretty damned sophisticated fellow.
    I think they have figured out--my read--all of them 
competing, including Rugova who is sort of there--that their 
future does not lie now in a Greater Albania. Their future lies 
in getting institutional control with the help of the West 
setting up institutions within Kosovo where they can govern. I 
am surprised that Haradinaj figured out he has to know how to 
govern. He seemed to me to understand the distinction between a 
guerrilla movement and a governing body.
    I really think we should be dealing with our European 
allies about final status now and talk about the inevitable 
now, instead of continuing to talk about this horrible 
circumstance of a Muslim state in the middle of Europe which 
conjures up all these bogeymen among our allies. The reason I 
mention that is to get to this point.
    This is one of the places where I think words matter, what 
we say matters and how we say it. Although I fully agree with 
Secretary Perle that there is a firm decision by the 
administration not to withdraw from the Balkans, I spent Monday 
with the President. I asked if I can repeat this, so I am not 
repeating a private Presidential conversation. He said, with 
Dr. Rice sitting there, he was going to make it clear to our 
European allies on this trip, as we speak, that there was no 
intention, period, of us drawing down our forces, meaning not 
reallocating, but drawing down, lessening our commitment 
physically and militarily in the Balkans.
    So, I think the record should reflect that that is the 
final word as the President told me. He said emphatically in 
front of Dr. Rice, his National Security Advisor, that was the 
policy. So, I think that may be a very positive first step.
    But it worries me that we seem to be yielding--the second 
point. I do not quibble with the notion that our European 
allies ultimately always share the burden. We can argue about 
the detail, but they seldom share the burden of leadership. I 
would make a distinction here. I do not think it is a false 
distinction between the burden of leading and the burden of 
sharing the responsibilities once a decision is made. I do not 
want to buildup a notion here among our colleagues, as some 
believe, that the reason we should get out is because the 
Europeans are not doing enough. I make a distinction among 
leading, deciding, and implementing.
    Which leads me to my question. We have followed the 
European lead in the last 7 months on the Former Yugoslav 
Republic of Macedonia. We have looked to them and the EU to go 
in and negotiate. We have followed the European lead on Serbia 
in lifting sanctions. That has been a strong European 
initiative, and we have followed the European lead, in an area 
we have not discussed at all today, in terms of Montenegro and 
what appears to be this fixation on the part of the Europeans, 
that we seem to be bolstering, that the idea of a plebiscite, 
the idea of an vote on independence in Montenegro would be per 
se an absolute, total disaster. I think we have become, as we 
Catholics say, more Catholic than the Pope on Montenegro.
    And I am hoping that on the other two matters it is merely 
an acquiescence borne out of initial indecision that every new 
administration goes through getting their act together. This is 
not a criticism. We have been here for a lot of 
administrations. I have been here since Nixon, as you have, Mr. 
Secretary, and you have, general. Every Governor who comes to 
office understandably comes without a sense of sure-footedness 
in the area of foreign policy, and they tend to pick one from 
category A and category B on their side of the political 
spectrum. Then there is a little bit of a battle that goes on, 
and then ultimately they resolve it. The President resolves in 
coming down on one side or the other within the spectrum that 
he has chosen advisors from.
    Can you respond to whether or not you think that there is 
a--how can I say this--whether this administration has, in 
fact, to the best of your knowledge, thought through our 
position on Montenegro or whether we are just merely acceding 
to our European allies, if you know or if you have a view, and 
whether or not our European allies would likely follow us more 
broadly if we were to lead, be assertive as it relates to 
everything from war criminals to the Former Yugoslav Republic 
of Macedonia? They are my two concluding questions, if you 
could comment.
    Mr. Clark. Well, Mr. Chairman, I think the European allies 
will follow if we are assertive, but we have to speak and put 
the resources behind it to back it up. General Nash may have 
more to say about this when he talks to you about his 
experiences in Kosovo, but my experience was that when the 
United States went into Kosovo after the air campaign, we did 
so encouraging the Europeans to lead. When we tried to lead, we 
did not want to put the resources behind it, and therefore, 
nations pulled their own weight. Some of our allies had 
slightly different interpretations of the mission of KFOR and 
the degree of support they were willing to give to the U.N. 
leader, Bernard Kouchner, than others did. This caused us 
trouble in my view in Mitrovica.
    So, I think they will follow us when we assert leadership, 
but when we assert it, we have got to back it up with 
resources. We cannot demand the leadership and then demand that 
they pay the full price. If we are going to lead, we have to 
lead.
    With respect to Montenegro specifically, for a long time 
people have been very ambivalent about Montenegro, too small, 
not economically viable, difficult culture, a record of 
involvement in corruption and smuggling and other things there 
along the coastline, great tourist potential but not very well 
developed, the population split, and the population undecided. 
So, the international community as a whole has generally 
counseled caution.
    The giveaway in this case is that the reasons for 
counseling caution vary. When Milosevic was there, it was do 
not start a civil war. We do not want to get involved in a 
civil war, and we could not imagine how to help you if you had 
one. Now Milosevic is gone. Now I hear other reasons.
    I think the United States has to be true to its principles 
in this case. By that constitution, they are entitled to have a 
vote, and the decision to have that vote should be their 
decision. They should make a decision that is informed by all 
the facts. This is going to be a very tough slog and they 
cannot ignore Serbia. They are connected with it historically, 
geographically, economically, culturally in so many ways. So, 
whatever they do, they are going to do. But it has been done in 
the past with other states who were forged together at the end 
of World War I only to decide they wanted a velvet divorce 
later on. I do not think we can quite say to Montenegro they do 
not have the right to confront that decision themselves.
    Mr. Perle. Senator, I think the notion of European 
leadership is an oxymoron actually. And there are good reasons 
for that. There are 50 years of cold war history in which the 
Europeans expected the United States to lead and the United 
States did not disappoint them. The habit and tradition of 
leadership in which we were the leader developed over a long 
period.
    Second, very few of the European governments are unitary 
governments. They are almost all coalition governments, often 
very delicately balanced, a handful of Greens can sometimes 
determine the balance. I cannot tell you how many issues I went 
through when I chaired a NATO committee where the ability to 
get cohesion out of our allies depended sometimes on a single 
member of a party of three in forging a common position.
    Third, relatively speaking none of these governments are 
large enough, weighty enough to lead the others. The larger 
European countries, four large countries, are of roughly equal 
size and none of them is in a particular position to lead the 
others.
    So, for all of those reasons, the United States has to 
lead.
    I think American Presidents have tended to think that 
perhaps Europe is now coming into its own. We certainly 
accepted the declaration of Jacques Poos when he spoke for the 
European community with respect to Bosnia and said, the hour of 
Europe has arrived. We will handle this, and we saw what 
happened.
    If President Bush has gone to Europe thinking that the 
United States is in a position to cede leadership on these 
issues to the Europeans, I promise you he will come back with a 
very different idea. He will have enough meetings and enough 
discussion so that he will draw the right conclusion, which is 
that the Europeans cannot substitute for American leadership. I 
have a lot of confidence that, as he sits across the table, he 
will draw the appropriate conclusions, and we will see strong 
American leadership.
    The Chairman. It may sound unexpected coming from me, but I 
have a similar confidence. I was impressed. It is presumptuous 
of me to say this. Far be it for me to comment on a President, 
but I was impressed that this was a man seeking answers. This 
is a man, who given the options and the facts underlying each 
of them, whose instincts are solid and good, not merely in a 
moral sense, but good, sound. But he will meet a lot of 
resistance within his administration, even some in my own 
party.
    Gentlemen, as usual it has been genuinely a pleasure and 
educational having you here. I know you know I will continue to 
try to trespass on your time and your views. I cannot tell you 
how much we appreciate it. I thank you, general, for making the 
trip up, and I look forward to being able to continue to work 
with both of you on this.
    You do have extensive contacts within this and previous 
administrations. To the extent that you are making your views 
known--knowing you both, you probably are--at the highest 
level, as well as the second levels, within this 
administration, I think that was very useful. You are listened 
to a lot more than I would be, and I urge you to make your 
views known.
    But, again, thank you both very, very, very much. I 
genuinely appreciate it.
    Our next and last and clearly not our least panel--I 
appreciate their forbearance--is Dr. Serwer--and I hope I am 
pronouncing it correctly, Doctor--and General Nash. I would 
invite both of them to approach the table and maybe, general, 
you could begin. In light of the fact we kept you waiting so 
long, I impose no restriction on your time. I am here as long 
as you are willing and would like to make your views known. I 
thank you both for coming and I again apologize for taking so 
long to get to you. General, if you would proceed, unless it 
makes more sense for Dr. Serwer.

   STATEMENT OF MAJ. GEN. WILLIAM L. NASH (U.S. ARMY, RET.), 
SENIOR FELLOW AND DIRECTOR OF THE CENTER ON PREVENTIVE ACTION, 
          COUNCIL ON FOREIGN RELATIONS, WASHINGTON, DC

    Mr. Nash. Mr. Chairman, thank you very much. This is my 
first appearance before this committee.
    The Chairman. It is an honor to have you here, general.
    Mr. Nash. Well, it is an honor to be here and I appreciate 
your comments.
    I too have provided a statement and will not go into 
detail. Based on the morning's conversation, maybe I will make 
just a few comments.
    The Chairman. Well, your entire statement will be placed in 
the record as if delivered.
    Mr. Nash. First of all, I think the title of the hearing 
today is very important because, in fact, there is an 
intertwined nature between U.S. engagement and the crisis in 
Macedonia. I would submit to you that the questions about U.S. 
engagement precede this administration. There has been relative 
apprehension by a variety of players as to the degree of U.S. 
commitment to the region.
    We all agree here that U.S. engagement and leadership is 
important. I would add two points to the discussion. Without 
strong United States participation and leadership, there is 
always a question in the minds of the players to include the 
allies that the United States will represent a court of appeals 
for anything decided upon without their active participation.
    The Chairman. That is a good way of putting it.
    Mr. Nash. In that case, it is almost a self-fulfilling 
prophecy of the inability of others to lead. So, I think we 
need to understand that.
    Last, I would distinguish between leading and dictating as 
we engage in the Balkans. Wherever possible, we should build 
rather than demand a consensus in the pursuit of our interests.
    Sir, I think the next thing I would comment on is the 
necessity for consistency in U.S. positions. You can talk about 
the consistency of the American voice speaking on the Balkans. 
I think our friends in Europe and in the region understand that 
you will not get one voice from the Congress of the United 
States, and that is perfectly understandable. They are less 
understanding of different voices coming from the executive 
branch, and I think that is one thing that we should be very 
mindful of.
    But I would tell you that I think we require a 
comprehensive and consistent policy with respect to the 
Balkans. If refugee returns are important in Bosnia, refugee 
returns are important in Kosovo. If minority rights are to be 
protected in Banja Luka, minority rights must be protected in 
Pristina. And I also think, sir, that if we must set a deadline 
for the turning over of Milosevic to The Hague, then we might 
also set a deadline for ourselves for the capturing of other 
war criminals. I think it is very easy for those in the region 
to see a lack of consistency.
    The Chairman. Good point.
    Mr. Nash. Sir, if we fought an air campaign because of 
principles, we need to build the peace on principles, and the 
failure to do so or rationalization to the contrary is quickly 
seen as hypocrisy.
    Sir, the last point I would cover that has not been talked 
about today--well, you mentioned earlier the Special 
Representative. I do think we need to organize for success 
better in the civilian implementation aspects of our work in 
the Balkans.
    I will not comment on the Special Representative aspects, 
but I would say to you that--I just would like to share with 
you the difference in being a general on a peacekeeping mission 
and being a U.N. civil administrator on a peacekeeping mission. 
I would not distinguish between NATO and the U.N. as much as I 
would distinguish between the military and the civilian 
implementer because the problems with civilian implementation 
in the United States is just as great. That is an area for 
probably another discussion, but it is one that, as we try to 
do our work in the Balkans, needs attention.
    The Chairman. I could not agree with you more.
    Mr. Nash. Sir, again, thank you.
    [The prepared statement of Mr. Nash follows:]

      Prepared Statement of Gen. William L. Nash (U.S. Army, Ret.)

    Thank you very much for the opportunity to be here today. That this 
committee would be interested in my views on ``The Crisis in Macedonia 
and U.S. Engagement in the Balkans'' is a great honor.
    I first went to Macedonia in June 1995; it was my first trip to the 
Balkans. I was visiting the soldiers of the 1st Armored Division who 
were serving as part of the UN Preventive Deployment Force. I had 
recently taken command of the division. I was very impressed with both 
the soldiers and their mission. It seemed we had gotten it right--
deployment before fighting broke out and our presence in Macedonia was 
a clear signal that the turmoil to the north was not going to be 
allowed to spread south. The international community had drawn a line 
of peace.
    My next trip to the Balkans was a result of the Dayton negotiations 
and the resulting Peace Accord for Bosnia-Herzegovina. On this 
occasion, I had the privilege of commanding both the 1st Armored 
Division and Task Force Eagle, what was then a multinational division 
of 25,000 soldiers from 12 nations. We were charged to ensure the 
implementation of the military provisions of the Dayton Peace Accord, 
but our tasks were much more broadly defined by our very presence if 
not by the written word of our instructions. I commanded TF Eagle from 
December 1995 to November 1996.
    My last or maybe I should say latest tour in the Balkans was as a 
civilian working for the United Nations in Kosovo. I was the Regional 
Administrator for northern Kosovo with headquarters in Mitrovica, the 
small city that is the change over point between Albanian and Serb 
majorities in Kosovo. I served with the UN in Kosovo from March to 
November of last year.
    Despite these experiences, I am not a Balkans expert, and my 
thoughts are far more intuitive than they are founded in any rigorous 
academic study or diplomatic training. But I have spent some time in 
the region, and have worked the issues from a number of viewpoints. I 
would offer the following considerations:
    Importance: I believe that the United States has valid (even if 
they are not vital) interests in Southeastern Europe. I also believe 
that what is important to our European allies is of some importance to 
the United States--that's the way friends behave. Furthermore, I do not 
believe it to be acceptable to ignore the human consequences of 
disinterest or disengagement in the region.
    I do not know how long it will take to build a self-sustaining, 
stable environment in Southeastern Europe. Hard problems, like the ones 
in this region, take a long time to fix. The problems have more to do 
with political, economic, and social factors than military ones. So 
even while our troop levels have been and will continue to be reduced, 
our commitment to the security and stability of the region cannot be 
pared down in the same way.
    Engagement and Leadership: In the six years I have been actively 
involved in the Balkan situation, I have heard only one thing that all 
parties agree upon: for any chance of a positive outcome to the years 
of tragedy and turmoil in the Balkans, the United States must remained 
engaged and provide active leadership to both the local players and the 
international community. While determining ``how much engagement is 
enough'' is more art than science, I believe that our efforts must take 
two basic forms.
    First, we must act as part of the international community through 
the United Nations Security Council, NATO political and military 
agencies, and the Organization for Security and Cooperation in Europe. 
The process of our serious participation and consultation with the 
fellow members of these organizations will serve to not only benefit 
the situation in the Balkans, but to establish the consultative and 
cooperative habits for further success in different regions and 
conditions.
    I remember well that in the early days of NATO's Bosnian 
intervention, all the commanders understood that cohesion within the 
allied force was our center of gravity . . . a condition to be 
preserved at all costs. Furthermore, both the Russian and American 
military chains of command knew that we were establishing relationships 
in Bosnia that were not only unprecedented, but inconceivable as well 
just a few years prior.
    It is my judgment that American good faith and cooperation in the 
Balkans can and should have a positive effect on the overall views 
others take towards the United States on other important defense 
issues.
    The second form of engagement is in the strong bilateral 
relationships we must have with all the local and regional leaders in 
the Balkans. Serbia and Macedonia require the most attention. Also, I 
would recommend the United States be more comprehensive in our approach 
to ensure we are talking with and listening to all parties with 
legitimate interests in the outcome of the events in the region. I 
would caution against continued demonizing of the Serb minority in 
Kosovo, which has been our tendency in the past.
    In both cases, i.e., bilateral and multilateral, the United States 
must listen as much as we talk, and actively seek opportunities to 
build rather than demand consensus.
    Consistency: The United States requires a comprehensive and 
consistent policy with respect to the Balkans. If refugee returns are 
important in Bosnia, then refugee returns must be as important in 
Kosovo. If minority rights are important in Banja Luka, then minority 
rights must be important in Pristina as well. If we must set a deadline 
for the transfer of Milosevic to The Hague, then might we not also set 
a deadline for ourselves for the capture of other outstanding indictees 
such has Karadzic and Mladic.
    Now, I fully understand the difficult nature of the three ``hot 
button'' issues I just raised--refugees, minority rights, war 
criminals--they are very hard. I have lived and worked those issues on 
the ground for an extended period of time. And I would admit that my 
thoughts have changed, I hope matured, about how to address them. I am 
convinced that we must insist on the accomplishment of these tasks 
simultaneously. Insisting on the capture of was criminals helps temper 
emotions against returning refugees and ensuring that minorities are 
able to live and work with the majority. We have to make clear that we 
favor no side or party or people--that we are on the side of principle.
    Sir, if we fought an air campaign because of principles, then we 
must build a peace on those same principles. Rationalization to the 
contrary is too easy and is too quickly revealed as hypocrisy.
    Firmness: Of greatest importance is that in all our actions, we 
must be seen as firm in our beliefs, principles and actions. Any sign 
of hesitancy or lack of conviction will be exploited. The escalation of 
violence along the southern borders of Kosovo in recent months is a 
direct result, I believe, of U.S. and NATO hesitancy to act with 
firmness when the initial indicators gave every reason for us to 
anticipate trouble.
    In general terms, our words have been right, but our actions have 
not matched the rhetoric; there has been insufficient military response 
to the provocation and we are now faced with the embarrassing situation 
that NATO occupies and is responsible for the security of the area 
being used by the guerrillas as a staging base for operations well 
inside Macedonia. Additional resources should have been employed, and a 
greater effort made to seal the border areas.
    Likewise in Kosovo itself, we have not been able to establish the 
rule of law and protection of human rights as well as we might have. My 
biggest single frustration in Mitrovica was my inability to establish a 
viable refugee return plan. While we were able to resettle over one 
thousand Kosovar Albanians north of the Ibar River to include the mayor 
of Mitrovica, we were unable to move any Serbs south--it was too 
dangerous because the majority population refused to cooperate. This 
failure, in turn, had a profound impact on the cooperation of the 
Kosovo Serbs in the political process.
    Additionally, neither the UN mission nor NATO was willing to take 
on the security measures to establish law and order throughout Kosovo, 
especially in the northern municipalities. Nor did either group provide 
sufficient protection to the minorities, especially in the southern 
municipalities. This gap in security is the principal reason why 
building peace has been so slow.
    Civilian implementation: Having worked this ``peace building'' 
effort from both the military and civilian sides, I would like to 
conclude with a few comments about what I believe is necessary to 
better serve American interests. Until the civilian component of these 
efforts receives the same relative priority in personnel and resource 
allocation, as does the military component, we will never achieve our 
goals. It's my judgment we spend far too much time talking about the 
military issues and insufficient effort spent analyzing the political, 
economic, social and the broader security problems.
    Further, it is hard to exaggerate the lop-sided professional 
advantage the military has over civilians in peacekeeping missions. As 
an American general, I led soldiers fully trained and equipped who 
worked with other professional soldiers that were equally trained. 
Everything was planned and executed with thorough coordination.
    As a civilian administrator for the UN mission in Kosovo, I led a 
group of talented and dedicated people--I cannot over-emphasize this: 
they were as dedicated and as talented as any soldiers, and they 
responded extremely well to both hardships and leadership. But, they 
had little else in common and had been recruited in a rather haphazard 
manner. They had neither standard training nor a common sense of the 
mission.
    In these circumstances, the military component will often fill 
these mission voids, and then we hear the complaint of ``mission 
creep.'' It is a matter of organization and leadership. While I found 
overall civilian implementation better in Kosovo than in Bosnia, much 
remains to be done. My view is that the United States must develop a 
civilian peacekeeping capacity led by the Department of State but 
including many other governmental agencies. This is a matter of 
importance.
    Mr. Chairman, I thank you for this opportunity and will be happy to 
answer your questions.

    The Chairman. Thank you.
    Doctor?

     STATEMENT OF DR. DANIEL P. SERWER, DIRECTOR, BALKANS 
  INITIATIVE, UNITED STATES INSTITUTE OF PEACE, WASHINGTON, DC

    Dr. Serwer. Mr. Chairman, I hope you will permit me to 
deliver a short part of my statement.
    The Chairman. Please, take your time.
    Dr. Serwer. I will submit the rest for the record.
    The Chairman. You were kind to wait on us.
    Dr. Serwer. I want to underline that this is a moment of 
great peril: the crisis in Macedonia threatens to destabilize 
not only that country, but also the Balkans region. We are 
again faced with a fundamental policy decision: do we engage to 
protect democracy and multi-ethnicity or do we abandoned the 
Balkans to partition and war? Let there be no doubt. Bosnia and 
Kosovo are also at risk. If the extremists in Macedonia are 
successful, it will inspire Serb and Croat extremists in Bosnia 
and Serb and Albanian extremists in Kosovo, setting back hopes 
for U.S. troop reductions.
    More generally, U.S. interests in a peaceful and democratic 
Europe, whole and free, cannot be fulfilled if extremists are 
permitted to attack legitimate and democratic, even if 
imperfect, states. The administration needs to commit itself to 
a vision for the Balkans, one that includes support to 
democratic institutions, accountability for war crimes, 
rejection of extreme nationalism, and maintenance of a secure 
environment.
    What can and should NATO do in this situation?
    People in the Balkans believe that those opposed to NATO 
involvement are prevailing in Washington. This creates the 
misimpression that the United States does not oppose the 
guerrillas and gives the guerrillas confidence that NATO will 
not act against them. Distancing NATO from this crisis now 
makes things worse, and increases the likelihood that the 
alliance will be called upon at a later and more disastrous 
stage.
    Jacques Chirac is quoted this morning in the papers as 
saying that ``NATO should rule out nothing.'' That sounds like 
a good policy to me, but I would add NATO should rule out 
nothing and prepare for everything.
    NATO's main focus today, however, should be on achieving a 
negotiated settlement in Macedonia. Once the guerrilla war is 
halted and there is a peace to keep, NATO will have to decide 
whether commitment of its forces is vital.
    So, what are the ingredients of a negotiated settlement? 
There are three: weakening the extremists, helping the 
Macedonian Government turn toward a political settlement, and 
unifying international efforts.
    It is crucial, first of all, to weaken the extremists. If 
the fighting continues, the government may win the war but lose 
the loyalty of the 87 percent of Albanians who said 2 months 
ago in a poll that they want to continue to live in a unified 
Macedonia.
    The international community could be doing more to weaken 
the insurgency. In particular, it should end fund raising and 
recruitment by the extremists abroad, especially important in 
the United States, Switzerland, and Germany.
    We should use KFOR to crack down on the extremists' supply 
lines and supporters inside Kosovo not only by guarding the 
border, but also by arresting the kingpins. I understand that 
yesterday there were a number of arrests.
    We should continue to pressure Kosovo's political leaders 
to try to stop the insurgency, which casts a dark shadow over 
Kosovo's future.
    We should offer, as in southern Serbia, an escape route 
into Kosovo for those not accused of serious crimes, provided 
the guerrillas are prepared to demobilize and disarm under NATO 
supervision.
    And we should continue to provide military intelligence 
assistance appropriate to counterinsurgency warfare.
    Let me add a word about foreign support to the guerrillas. 
Fund raising and recruitment in the U.S. poses a threat not 
only to Macedonian sovereignty and territorial integrity, but 
also to U.S. troops. The administration could block fund 
raising if the insurgents are declared terrorists. If this is 
the only way, so be it. We need not only to limit the money 
flow, but also to send urgently a strong political signal 
crucial to the protection of U.S. forces.
    In addition to weakening the extremists, we should help the 
Macedonian Government turn from its increasing reliance on the 
military instrument to a more political strategy. What counts 
is not obliterating the guerrillas but regaining control over 
Macedonian territory and integrating Albanian citizens more 
fully into the life of the country. Legitimate grievances need 
to find serious responses and the polarization of Macedonian 
citizens needs to be overcome quickly if the country is to be 
saved. This is not the time for business as usual but for 
decisive political action.
    To these ends, let me suggest that the international 
community should, first of all, urge the Macedonian Government 
to exploit its military victories for political purposes and 
end the shelling of Albanian villages.
    Second, we should agree to recognize the Republic of 
Macedonia by that name, which is a name both Albanians and 
Macedonians have wanted.
    Third, we should insist on serious and continuous political 
negotiations to produce an early harvest of parliamentary 
action, including a new non-ethnic constitutional preamble, 
passage of the law on local governance, and use of the Albanian 
language in parliament.
    We should provide a quick package of assistance and 
investment aimed at overcoming ethnic division and revitalizing 
the economy.
    And we should support a broad dialog throughout Macedonian 
society on group and individual rights and responsibilities. I 
would add that on this last point the Institute is looking for 
opportunities to do just that.
    Mr. Chairman, the EU, NATO, and the OSCE have undertaken 
noble efforts in Macedonia, but a more unified approach is 
required. Experience in southern Serbia suggests that NATO, 
wielding as it does both military and political clout, must be 
engaged. Whoever leads the international effort in Macedonia 
should therefore be named not only by the EU but also by NATO 
and he should be prepared to devote full time to the effort.
    The United States also needs a full-time, high-level 
Balkans envoy, one who can speak authoritatively for the 
President, the Secretary of State, and the Secretary of Defense 
on a daily basis. The region is rife with rumors about changes 
in U.S. policy, partition plans, withdrawal of U.S. troops, 
disinterest in capturing war criminals, and U.S. support for 
this or that side in ongoing conflicts. The administration 
needs a consistent and authoritative approach to counter the 
cacophony of proposals and leaks that undermine efforts to 
achieve our objectives in the region.
    Mr. Chairman, the United States has invested $20 billion in 
Balkans peace efforts. The Europeans have invested much more. 
We have never been closer to dividends. Now is not the time to 
give up or to compete with each other. A strong American voice 
is required. Macedonia is the last in a long line of Balkans 
problems. Get it right and you will get the troops back sooner 
rather than later.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Serwer follows:]

                PREPARED STATEMENT OF DR. DANIEL SERWER

    My name is Daniel Serwer. I am director of the Balkans Initiative 
at the United States Institute of Peace, but the views I am about to 
offer are my own. The Institute does not take positions on policy 
issues, and I do not represent the U.S. government.
    Mr. Chairman, I come before you today at a moment of peril: the 
crisis in Macedonia threatens to destabilize not only that country, but 
also the Balkans region. We are again faced with a fundamental policy 
decision: do we engage to protect democracy and multiethnicity, or do 
we abandon the Balkans to partition and war? Let there be no doubt: 
Bosnia and Kosovo are also at risk. If the extremists in Macedonia are 
successful, it will inspire Serb and Croat extremists in Bosnia and 
Serb and Albanian extremists in Kosovo, setting back hopes for U.S. 
troop reductions.
    More generally, U.S. interests in a peaceful and democratic 
Europe--whole and free--cannot be fulfilled if extremists are permitted 
to attack legitimate and democratic--even if imperfect--states. The 
Administration needs to commit itself to a vision for the Balkans that 
includes support to democratic institutions, accountability for war 
crimes, rejection of extreme nationalism and maintenance of a secure 
environment.

               THE SITUATION IN THE BALKANS HAS IMPROVED

    The insurgency in Macedonia is occurring at a moment that might 
otherwise have been the best the Balkans have seen for ten years. The 
democratic regime in Croatia has been correcting the nationalist 
excesses of the Tudjman regime. The new governments in Yugoslavia and 
Serbia are beginning to make amends for the disasters of the Milosevic 
era. Bosnia has, for the first time since the 1995 Dayton accords, non-
nationalist governments, except in Republika Srpska. In Kosovo, 
moderates triumphed in municipal elections last October, as they likely 
will again in November's Kosovo-wide elections.
    Ten years ago, Balkans leaders were bent on war, with popular 
support. Today, most people in the region are tired of war, ready to 
live in peace and anxious to become full partners with Europe and NATO. 
Only a few people are committed to violence. Marginalized politically 
and threatened with the loss of economic advantages from trafficking in 
arms, drugs and people, extreme nationalists are trying to polarize 
ethnic groups and revive the atmosphere of hatred and strife in which 
they thrived for a decade.

    THERE ARE PROBLEMS IN MACEDONIA, BUT INSURGENCY IS NOT JUSTIFIED

    This they do in Macedonia under the banner of fighting for Albanian 
rights. Let me be clear: many Albanian grievances are justified. 
Albanians feel like second-class citizens in Macedonia, not only 
because the constitution favors ethnic Macedonians but also because of 
their under-representation in the police and civil service and limited 
use of the Albanian language. Ethnic Macedonians experienced 
independence as a source of pride and affirmation of their identity. 
Albanians in Macedonia, who found themselves suddenly separated by an 
international border from cousins and compatriots in Kosovo, 
experienced independence as a loss that reduced their freedom of 
movement, commercial ties and cultural contacts.
    Armed insurgency in Macedonia is not however justified. Nor would 
it have occurred there if Macedonia had been isolated from Kosovo and 
southern Serbia. The leadership of the guerrillas had fought for years 
in Kosovo, though some had been born in Macedonia. They failed to find 
jobs and political roles in Kosovo after the war. With limited skills, 
they returned to fighting and smuggling. In Macedonia they found a weak 
state and political space on the nationalist extreme, because of the 
moderation of Albanian politicians who have participated in government 
since independence.
    Neither the United States nor Europe can afford to allow extremists 
with strong criminal ties to dominate politics and economics in the 
Balkans. We need to learn how to strengthen moderates and weaken 
extremists, if only because of our interest in lessening troop 
commitments and combating the organized crime and trafficking in which 
the extremists have become expert.

              BOTH POLITICS AND SECURITY REQUIRE ATTENTION

    What can be done? There are two fronts in Macedonia: a political 
front and a security front. On the political front, Europe has the 
lead. The broad coalition government formed with the assistance of 
Javier Solana is a step in the right direction. But the guerrillas will 
not stop fighting because a new government has been formed; they will 
challenge it and try to prevent a negotiated solution without their 
participation in the process. It is crucial that the political strategy 
be combined with a security strategy that gets the guerrillas to 
withdraw and channels Albanian grievances into proper political 
channels.
    We have a model for this approach just a few miles away in southern 
Serbia, where NATO has successfully mediated an agreement that allows 
for enhanced Albanian participation in local governance and the police, 
partial amnesty for the guerrillas and an infusion of investment funds 
while the Serbian government regains control over its territory and the 
guerrillas withdraw and disarm. This is the kind of agreement Milosevic 
would never have countenanced but Belgrade's new democratic government 
has boldly undertaken. Macedonia's beleaguered leadership should be 
looking for such an agreement.

              A NEGOTIATED SOLUTION SHOULD BE THE PRIORITY

    What can and should NATO do in this situation? If you believe that 
the U.S. has an interest in Balkans stability, that interest is at 
risk. Some of my colleagues claim that only a NATO deployment into 
Macedonia will prevent the crisis from worsening. They argue that the 
earlier such a deployment takes place, the better. If we wait until 
disaster occurs, the troop requirements will be greater.
    Others would argue that U.S. interests in the Balkans are secondary 
and that troops should be deployed only to protect vital interests. 
They would like to avoid deeper engagement in the Balkans. Our forces 
are stretched thin, so from this perspective any further Balkans 
obligations should be avoided and the Europeans asked to take on the 
burden in Macedonia.
    People in the Balkans believe that those opposed to NATO 
involvement are prevailing in Washington. This creates the 
misimpression that the U.S. does not oppose the guerrillas and gives 
the guerrillas confidence that NATO will not act against them. 
Distancing NATO now thus worsens the crisis and increases the 
likelihood that the Alliance will be called upon at a later and more 
disastrous stage.
    The main focus today should be on achieving a negotiated settlement 
in Macedonia. Once the guerrilla war is halted and there is a peace to 
keep, NATO will have to decide whether commitment of its forces is 
vital.
    What then are the ingredients of a negotiated settlement? There are 
three: weakening the extremists, helping the Macedonian government turn 
towards a political settlement, and unifying international efforts.

                         WEAKEN THE EXTREMISTS

    It is crucial first to weaken the extremists. The Macedonian army 
and police have had some military success, forcing guerrillas from a 
few villages. But they have destroyed homes, displaced thousands and 
alienated many Albanians. If the fighting continues, the government may 
win the war but lose the loyalty of the 87 percent of Albanians who 
said two months ago in a poll that they want to continue to live in a 
unified Macedonia. The international community could do more to weaken 
the insurgency. It should:

  <bullet> End fundraising and recruitment by the extremists abroad--
        this is especially important in the United States, Switzerland 
        and Germany.

  <bullet> Use KFOR to crack down on the extremists' supply lines and 
        supporters inside Kosovo, not only by guarding the border but 
        also by arresting the kingpins.

-  <bullet> Continue pressure on Kosovo political leaders to try to 
        stop the insurgency, which casts a dark shadow over Kosovo's 
        future.

  <bullet> Offer, as in southern Serbia, an escape route into Kosovo 
        for those not accused of serious crimes, provided the 
        guerrillas are prepared to demobilize and disarm under NATO 
        supervision.

  <bullet> Continue to provide military and intelligence assistance 
        appropriate to counterinsurgency warfare.

    Let me add a word about foreign support to the guerrillas. 
Fundraising and recruitment in the U.S. poses a threat not only to 
Macedonian sovereignty and territorial integrity but also to U.S. 
troops. The Administration could block fundraising if the insurgents 
are declared ``terrorists.'' If this is the only way, so be it. We need 
not only to limit the money flow but also to send urgently a strong 
political signal crucial to the protection of U.S. forces.
                     help the macedonian government
    In addition to weakening the extremists, we should help the 
Macedonian government turn from its increasing reliance on the military 
instrument to a more political strategy. What counts is not 
obliterating the guerrillas but regaining control over Macedonian 
territory and integrating Albanian citizens more fully into the life of 
the country. Legitimate grievances need to find serious responses and 
the polarization of Macedonia's citizens needs to be overcome quickly 
if the country is to be saved. This is not the time for business as 
usual but for decisive political action. To these ends, the 
international community should:

  <bullet> Urge the Macedonian government to exploit its military 
        victories for political purposes and end the shelling of 
        Albanian villages.

  <bullet> Agree to recognize the Republic of Macedonia by that name, 
        which is a name both Albanians and Macedonians have wanted.

  <bullet> Insist on serious and continuous political negotiations to 
        produce an ``early harvest'' of Parliamentary action, including 
        a new non-ethnic Constitutional preamble, passage of the law on 
        local governance, and use of Albanian in Parliament.

  <bullet> Provide a quick package of assistance and investment aimed 
        at overcoming ethnic division and revitalizing the economy.

  <bullet> Support a broad dialogue throughout Macedonian society on 
        group and individual rights and responsibilities.

                      UNIFY INTERNATIONAL EFFORTS

    The EU, NATO and the OSCE have undertaken noble efforts in 
Macedonia. But a more unified approach is required. Experience in 
southern Serbia suggests that NATO, wielding as it does both military 
and political clout, must be engaged, at least politically. Whoever 
leads the international effort in Macedonia should therefore be named 
not only by the EU but also by NATO, and he should be prepared to 
devote full time to the effort.
    The U.S. also needs a full-time, high-level Balkans envoy, one who 
can speak authoritatively for the President, the Secretary of State and 
the Secretary of Defense on a daily basis. The region is rife with 
rumors about changes in U.S. policy, partition plans, withdrawal of 
U.S. troops, disinterest in capturing war criminals and U.S. support 
for this or that side in ongoing conflicts. The Administration needs a 
consistent and authoritative approach to counter the cacophony of 
proposals and leaks that undermine efforts to achieve our objectives in 
the region.
    The United States has invested $20 billion in Balkans peace 
efforts. The Europeans have invested much more. We have never been 
closer to dividends. Now is not the time to give up or to compete with 
each other. A strong American voice is required. Macedonia is the last 
in a long line of Balkans problems. Get it right and you'll be able to 
get the troops out sooner rather than later.

    The Chairman. Doctor, thank you, and thank you, general, 
very much. I do not want to hurt your reputations, but I agree 
with everything both of you said.
    But I mean that sincerely. I think the prescription and the 
practical suggestions that you have made, Doctor, are right on. 
I quite frankly think the only one that may be politically not 
doable is the renaming of the Former Yugoslav Republic of 
Macedonia to Macedonia because of domestic and regional 
sensitivity. But I truly believe what you have laid out is the 
plan. I do not think, if the President asked me, I would alter 
it at all. If he had a wish list, what do you want me to do, I 
think you have got it right.
    General, I would like to go to you, though, because I agree 
with three points you have made that I do not think people 
fully understand. I am going to ask you to elucidate the points 
because I want it for the record. I want my colleagues to fully 
understand, if I correctly understand, what you are saying. 
That is, that it is not a matter of dictating to our allies, 
but a matter of genuine consultation and a genuine push within 
those consultations.
    I will never forget when I was credited or blamed with 
convincing President Clinton that we should change our policy 
on the embargo in the Balkans back in the early 1990's in the 
beginning of his administration. He said he was going to do 
that. He said he did not want to do it unilaterally. He said he 
was going to send Christopher over to our NATO allies and make 
the case. Everything I got back, maybe unfairly--I may not be 
accurate, but I got back from many of our allies--after 28 
years you get to know the individual personalities--was that 
Christopher basically went over and said, look, we want to lift 
the embargo but you do not really want to do that, do you? And 
there was not much of a hard sell.
    The point I want to make is this. The question I have is 
you are not suggesting that a very hard sell within the 
internal councils of NATO and Europe generally is inconsistent 
with consultation as opposed to just unilaterally deciding on 
this side of the Atlantic this is our policy. Would you speak 
to that just for a second so I do not have my colleagues 
misunderstanding what you said?
    Mr. Nash. You have to have your views in order to have the 
conversation, and they expect us to come with a viewpoint. They 
expect us to have an opinion. They expect us to live up to our 
values and our precepts. So, it is OK to believe in what you 
talk about, but it is also important to listen and look for 
ways to build a consensus based on values, based on principles.
    As we talk about issues of war criminals, we talk about 
issues of refugee returns, we talk about issues of protection 
of minority rights, the fact of the matter is on those three 
subjects the United States and our European allies have a 
variety of views. But as you address them together, you can 
look for ways to accomplish them all.
    For example, there are some in Europe that think the 
refugee return issue is of greater importance than the war 
criminal issue. The fact of the matter is, to the people in the 
region, they go together.
    The Chairman. That is exactly right.
    Mr. Nash. Also, as I said in my comments, refugee returns 
in Bosnia and refugee returns in Kosovo are also seen as 
equally important to the refugees that have been displaced.
    I understand you are good, sir, at putting deals together 
and developing legislative packages where you build consensus. 
It is the same process that you need to use as you negotiate 
and build consensus when working with our European friends.
    The Chairman. I appreciate your saying that because I think 
that one of the things that you and the Doctor both said is 
that the region is rife with rumors. It is amazing to me, 
including our own intelligence people when I was there last, 
general, pulling me aside and saying, tell me, Senator, what is 
the deal here? When I walk through such and such a town, 
village, enclave, I get approached saying, are you leaving? 
What are you doing? Are you agreeing to partition, and so on 
and so forth?
    So, I just think it is so important what you both said, 
that there be one voice here and that there be a clear voice 
and the President ordain that person, if you will, as being 
able to speak for him. I hope that is a realization the 
President comes to.
    Yes, please.
    Mr. Nash. Just one comment on that. I agree with Dan's 
comment about a Balkan envoy that could speak for the 
President, the Secretary of State, and the Secretary of 
Defense. I would just submit that we have not had one 
previously that could do that and to find one in the future 
will be very difficult.
    The Chairman. I think it will be difficult. I think the 
most important point though--I do not want to put words in the 
Doctor's mouth--is that it at least increases exponentially the 
possibility that there is a person, when he or she speaks, who 
is not likely to be contradicted the next day, the next week, 
the next month. I am not being facetious.
    Again, the President authorized me to be able to say this. 
I said, Mr. President, when I leave this meeting and the press 
asks me, what do you want me to say, and he said, tell them 
that I called you in ask for your advice. I am sure I am not 
the only one he asked for advice for his European trip. He 
asked me what was the one message I would want to have. I said, 
you know, Mr. President, we sit down in my end of the business, 
on a small scale, and say what do we want the major press in my 
state saying at the end of the following year about Biden. 
Biden did what? I said, I would, if I were you, look at it that 
way, Mr. President. He said, well, what would you want it to 
say? I said, when you come back, I hope two headlines are 
agreed upon by everyone in Europe and the United States. One, 
America Reasserts its European Engagement, European Power. And 
the second is, Bush Engaged. And he understood it. He 
understood the spirit in which I suggested that.
    I think that the first step is going to have to be, before 
naming an envoy, the President clearly stating what our 
objective is. One of the legitimate criticisms of the 
opposition in the last 8 years was occasionally they would 
argue that the last administration did not clearly state what 
its objectives were, what the end game was. I think it would 
serve us all well if the President were willing to do that.
    But it takes me to your second point, general, and I would 
like you to comment on it after the general does, Doctor, and 
that is that, if you excuse, as they say, a point of personal 
privilege. I have a son--he gets very upset when I do this, but 
my son is a Federal prosecutor who volunteered to go to your 
old territory to Pristina to be one of two representatives from 
the Justice Department with the U.N. delegation setting up a 
criminal justice system. As you know better than I do, general, 
they do not have a history of judges. They do not know how to 
judge. They do not have a history of a criminal system, that 
is, one that is based upon any Western principles, and so on 
and so forth. And it is kind of going from scratch.
    When I was last there, Dr. Haltzel and I and others sat 
around with the civilian leadership not just on the criminal 
justice system or their courts, but the whole of civilian 
leadership in Kosovo. It is a much larger animal to get your 
arms around, much more difficult to make work, much less 
certainty because of the political dynamics and to whom the 
High Representative answers.
    I found every place I went--I would like you to comment on 
this, general--it is the only time in the last 7 years, my only 
experience in 30 years in politics, where civilian leadership 
privately will pull you aside and say we need the military more 
here. We need the military to make more decisions. The 
willingness to look to you guys to do everything from construct 
a code of civilian conduct all the way through to pacify--bad 
term from my generation, but to bring order to a region.
    I met with Veton Surroi, whom you know, when I first got 
there the first time after the bombing had stopped. I posited 
the following proposition expecting some resistance, which was 
that I thought that before it got turned over to civilian 
control, the military, KFOR, should do what we did in Japan, 
impose a constitution. It was interesting to me that Surroi 
fully, totally concurred with that.
    We always go in with this notion that somehow, once the 
military gets their job done, there somehow can be an electoral 
process or a political process that will take root, that will 
produce these orderly benchmarks that are needed in a society 
as it comes out of 50 years of Communist rule and a dozen years 
of ethnic conflict.
    What would you do, general, if the Doctor were President 
and you were his National Security Advisor and he said, OK, 
general, tell me what do I do about the civilian rule in, for 
example, Kosovo, the international civilian apparatus. What are 
some of the practical things that you would suggest? I know you 
have an opinion. It may be unfair to ask you to state it.
    Mr. Nash. A couple of comments. First of all, your son is 
doing the Lord's work as he addresses the issues of rule of law 
in Kosovo. As you talked about earlier, the perception of the 
people of justice rather than of revenge is one that is very 
important.
    The Chairman. If I can interrupt you. One of our 
ambassadors got very upset when I met with the Kosovar 
leadership separately, and one made a comment about their 
independence. I said, well, I want to make it clear to you. If 
I were in charge--and at that time I was able to speak with 
more assurance about what the administration would do--if you 
step out of line, I am going to urge we come after you 
personally--you personally--arrest you, and if we cannot arrest 
you, take you out. I think that is the only language anybody 
understood because I think you are correct. I think there is 
this overwhelming perception that we have a selective 
imposition of principles throughout the Balkans, and I think it 
leads to great confusion.
    Mr. Nash. I agree with you, sir.
    Sir, since I came back from Bosnia at the end of 1996, I 
have looked at Japan and I have looked at Germany following 
World War II quite a bit. I was a dependent in Japan during 
that time.
    The Chairman. Were you really?
    Mr. Nash. Yes. My father was part of the occupation forces.
    I would make a couple of comments. We need to be careful 
about analogies. First of all, that was a citizen army we had 
in 1945 that occupied Germany and occupied Japan, and there 
were an awful lot of civilian skills embedded in the United 
States Army that led that effort.
    The Chairman. Interesting point.
    Mr. Nash. Yes. One of the things that we need to 
understand.
    The larger point I would say to the President is that we 
need to look at the long-range development of democracy. I have 
a little bit of time, since I retired from the army, in working 
on democracy development. So, I would come into this from the 
military viewpoint with the size and the capabilities of the 
military force today, a much, much smaller force than at the 
end of World War II, and for looking at the aspects of 
developing democracy in the long term, I would like to see more 
emphasis by the United States on developing civilian peace 
builders.
    This is less a compliment to me than it is a problem with 
the system, but we could not find anybody that would take the 
job in Mitrovica when I left in November, and I gave them 90 
days notice for when I was going to leave. Here we are 5 months 
later and there is no replacement. When I left the 1st Armored 
Division, there was not a blip. There were plenty of people to 
replace me.
    So, I think we need folks that understand the process--and 
dare I use the word--of peace building or nation building in 
this hallowed hall, sir.
    The Chairman. Use it with me.
    Mr. Nash. Yes, sir.
    Frankly, I think we talk too much about the military. We 
talk too much about the military issues and not enough about 
the political, economic, social, and overall security issues. 
Your son is working portions of that security issue.
    The Chairman. I do not want to exaggerate. My son is 
embarrassed when I say it. The only point I am raising is that 
even talking to him firsthand the confusion that exists, the 
bureaucracy, the inefficiencies.
    Mr. Nash. Yes, sir. It is hard.
    So, I think we need much more work on that, and I think the 
Department of State should take the lead but all of the 
Government needs to play and there is a great capacity in the 
military to assist.
    The Chairman. Doctor, and then I will let you fellows go.
    Dr. Serwer. Senator, you have opened up a lot of issues. 
Let me just say briefly that the split between civilian and 
military implementation in these situations is a mistake. It is 
a mistake that is pushed on the international community by the 
United States because we will not accept a civilian 
administrator over our military and we will not let our 
military do the civilian tasks.
    I think there are solutions to this. I underline these are 
personal views. I believe that in the first 6 to 9 months, even 
a year, after an intervention of this sort the military is the 
only law on the ground and it has to take on the whole 
responsibility and only gradually turn over responsibility to 
civilian implementers, who must focus on the rule of law. We 
have focused on building schools. We focused on building 
houses. We focused on getting refugees back. I think all of 
those things are terribly important, but I think in the absence 
of the rule of law, none of them will stick.
    Quite frankly, few went into Bosnia in 1995-1996 thinking 
about the rule of law. ABA CEELI were the only ones and they 
did a noble job. But this is a very small part of our 
assistance program. It should be a major part of our assistance 
program.
    I might add a personal word about Mitrovica. I was among 
the people who were approached to replace Bill in Mitrovica, 
and I would say a simple word. People were uninterested not 
just because there was no one capable, but because of the split 
between military and civilian authority. If you took on that 
civilian job, you did not have any force with which to do what 
you thought was necessary because there was such a clear 
difference of vision between the----
    The Chairman. That is a clear important point to make.
    Dr. Serwer [continuing]. Forces on the ground and the 
civilians.
    Let me just add a final word about discussion of a U.S. 
envoy. You are absolutely correct, Mr. Chairman, that you 
cannot have an envoy who does not have a policy behind him. 
That is why I emphasized the administration needs a vision, and 
when it has that vision, it can then have an envoy who 
represents all of the power centers. I agree it has been 
difficult for us to have that kind of envoy, but one of our 
advantages over the Europeans is that we are able to combine 
all the instruments of power--diplomatic, economic, and 
military--and exert them at the same time, when we think 
something is important enough to do it.
    Thank you, Senator.
    The Chairman. I understand by the look on your face your 
skepticism. I must tell you share it a little bit. I do not 
want to oversell what I think an envoy can do. But I think 
right now the most urgent need in the region is for there to be 
a voice that all the parties are convinced speaks for the 
United States. He will probably shoot me for saying this but I 
think, for example, Secretary Armitage could do that job 
incredibly well. If he hears this, he will probably be damning 
me not with faint praise, just damning me. He is close to Bush, 
to Powell. He has a relationship with Rumsfeld.
    The main thing, though, is to settle events on the ground 
so that everybody says, OK, this administration has come to its 
milk, it has made its decision. This is where it is. Again, I 
hope this is not translated by the press or anyone else as a 
backhanded criticism of this administration. I said it takes 
every new administration, unfortunately, time to work through 
where they are, but we are running out of time.
    General, I want to hear your comments, but I might say I 
want to personally compliment you. I mean this sincerely not 
only in your military, but even more importantly in your 
civilian capacity, taking on the job you took on. I want to 
remind everybody where Mitrovica was before you arrived and 
where that could have gone in terms of really totally 
unraveling things.
    But I would argue--and I may be dead wrong--that part of 
the reason why you were able to do what you did is because on 
the ground everyone knew you were a former general. I think 
that had something to do with it, notwithstanding the fact you 
were a civilian. The only thing I have ever observed that is 
respected in the region in the last 12 years has been the U.S. 
military.
    I want to tell you something. I know this sounds 
chauvinistic. I have been truly impressed by the skill of our 
young women and men over there. One example. We were up in 
Brcko. There was about to be a very serious confrontation. This 
is how many years ago? Four years ago. There was this whole 
area which had been completely devastated. It looked like a 
giant Levittown with bigger homes. In terms of the right of 
return, you had people--you know the story, Doctor, of people 
moving into other people's homes and so on and so forth.
    We had some very strong civilian leadership, a couple of 
whom were Americans, but none of it worked until a young 
captain literally set up a trailer in the middle of this 
``neighborhood,'' hoisted an American flag, and negotiated one-
on-one personally. He was the only one anybody trusted. This 
was a young guy who was not trained. This guy was not trained 
as a diplomat. He was not trained as an arbitrator. I was blown 
away by the skill, the ingenuity, and the incredible patience. 
Some of these young troops of yours that are walking through 
these towns are the only people anybody trusts.
    Now, I realize that is an unfair burden to thrust upon 
them, and I am not suggesting we institutionalize that burden. 
But I just want to say for the record I have been so incredibly 
proud of the U.S. military. I am not suggesting other military 
are not good. But up personal and close, whether it was Camp 
McGovern or Bondsteel, or wherever we were watching these young 
kids, and the authority you give them, you are talking about 
22-year-old kids out there doing more good in 5 minutes than 
anybody else does in a week.
    Anyway, can you respond? And I will close this out because, 
as you know, obviously I have a passion for this subject. I 
could keep you here forever. But, general, if you do not want 
to do it now, maybe you would be willing to meet with me 
privately. Tell me about some of the practical distinctions 
between your civilian role and your military role in terms of 
trying to work out what you mean by needing the strength in the 
civilian component.
    Mr. Nash. Sir, I would enjoy very much having that 
discussion with you if you would like to do it more completely 
at another time.
    The comment that I would make to what Dr. Serwer said, 
first of all, I agree on the priority of rule of law, and that 
is a priority issue that I have only come to appreciate over 
the time.
    But I want to discuss, if I could, very quickly the issues 
of civilian implementation and the frustrations about the 
forces that were mentioned earlier. The fact of the matter is 
there was not a consensus of political views in Mitrovica and 
there was a variance of perception of priorities. It is largely 
the basis for which I talk about the fact that law and order, 
refugee returns, and minority rights protection are 
intertwined, a confluence of issues that have to be dealt with. 
Some of the perceived obstructionism on the part of some folks 
in Mitrovica was national policy based on disagreements on 
those issues under the guise of other reasons.
    Having said that, I think that some of the disagreements 
would have been the same regardless of which military force was 
there because the issues at hand were largely police, and there 
is a natural hesitancy, for good or bad, to address those 
issues in that environment. That is why Dr. Serwer is entirely 
right, that the rule of law and all the components thereof is a 
priority effort.
    The Chairman. Do you want to make a concluding comment, 
Doctor?
    Dr. Serwer. I would just comment, Senator, that the U.S. 
Institute of Peace has worked very closely with U.S. soldiers 
stationed at Camp Monteith, the other U.S. base in Kosovo. We 
have worked very closely with them in developing local dialogs 
between Serbs and Albanians. I share completely your view that 
these guys have done some fantastic things, that they do it 
every day on the ground, and we are very proud to have been 
able to help them out in the effort to reknit those 
communities.
    The Chairman. I have also been amazed at the morale. This 
stuff about somehow this is sapping our military and drawing 
down--I was with General Casey and others, your former 
colleagues, and they say, look, give me a kid over here for 6 
months and I will forego 2 years of training stateside. Give me 
a kid for 6 months here.
    By the way, I would state for the record the reenlistment 
rate of those who served in the Balkans is higher by--I forget 
what the factor is--than any other part of the world. It is 
amazing. They know what they are doing. They care about it.
    I would just conclude my statement here with I could not 
agree with you more about the rule of law being the single most 
important priority. That is why with the last administration I 
was so outspoken about training police forces, movement quickly 
of gendarmerie into position--once you have a court system 
established and a code, because all the rest fails if it is not 
there.
    Again, I am sorry to take so much of your time and keep you 
waiting, but I truly appreciate your input. With your 
permission, I will be back to you, if I may, because as the 
good old saying goes, the devil is in the details here. This is 
one house at a time when we talk about restoration. We are 
talking about a block at a time. We are not talking about you 
wave a wand and you have an agreement where everybody moves. I 
just hope that we understand that there is a need to be 
declarative, forceful, and resolved as it comes to the Former 
Yugoslav Republic of Macedonia right now, because I think you 
are right, Doctor. If that unravels--talk about putting our 
troops in harm's way, that is the way to do it.
    Anyway, thank you, gentlemen, very much. I thank the 
audience for having stuck with this, and we are now adjourned.
    [Whereupon, at 1:42 p.m., the committee was adjourned.]


</pre></body></html>
